<html>
<title> - H.R. 5210, ``NATIONAL PARK RESTORATION ACT''; AND H.R. 2584, ``NATIONAL PARK SERVICE LEGACY ACT OF 2017''</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
     H.R. 5210, ``NATIONAL PARK RESTORATION ACT''; AND H.R. 2584, 
             ``NATIONAL PARK SERVICE LEGACY ACT OF 2017''

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                     SUBCOMMITTEE ON FEDERAL LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                        Tuesday, March 20, 2018

                               __________

                           Serial No. 115-42

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       



       


        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
          
          
                           _________ 

               U.S. GOVERNMENT PUBLISHING OFFICE
                   
 29-422 PDF              WASHINGTON : 2018              
          
      

                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
  Chairman Emeritus                  Madeleine Z. Bordallo, GU
Louie Gohmert, TX                    Jim Costa, CA
  Vice Chairman                      Gregorio Kilili Camacho Sablan, 
Doug Lamborn, CO                         CNMI
Robert J. Wittman, VA                Niki Tsongas, MA
Tom McClintock, CA                   Jared Huffman, CA
Stevan Pearce, NM                      Vice Ranking Member
Glenn Thompson, PA                   Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Raul R. Labrador, ID                 Norma J. Torres, CA
Scott R. Tipton, CO                  Ruben Gallego, AZ
Doug LaMalfa, CA                     Colleen Hanabusa, HI
Jeff Denham, CA                      Nanette Diaz Barragan, CA
Paul Cook, CA                        Darren Soto, FL
Bruce Westerman, AR                  A. Donald McEachin, VA
Garret Graves, LA                    Anthony G. Brown, MD
Jody B. Hice, GA                     Wm. Lacy Clay, MO
Aumua Amata Coleman Radewagen, AS    Jimmy Gomez, CA
Daniel Webster, FL
Jack Bergman, MI
Liz Cheney, WY
Mike Johnson, LA
Jenniffer Gonzalez-Colon, PR
Greg Gianforte, MT
John R. Curtis, UT

                      Cody Stewart, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                                 ------                                

                     SUBCOMMITTEE ON FEDERAL LANDS

                      TOM McCLINTOCK, CA, Chairman
            COLLEEN HANABUSA, HI, Ranking Democratic Member

Don Young, AK                        Niki Tsongas, MA
Stevan Pearce, NM                    Alan S. Lowenthal, CA
Glenn Thompson, PA                   Norma J. Torres, CA
Raul R. Labrador, ID                 Ruben Gallego, AZ
Scott R. Tipton, CO                  A. Donald McEachin, VA
Bruce Westerman, AR                  Anthony G. Brown, MD
Daniel Webster, FL                   Jimmy Gomez, CA
Jack Bergman, MI                     Vacancy
Liz Cheney, WY                       Raul M. Grijalva, AZ, ex officio
Greg Gianforte, MT
John R. Curtis, UT
Rob Bishop, UT, ex officio

                                 ------        
                                 
                                 
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, March 20, 2018..........................     1

Statement of Members:

    Hanabusa, Hon. Colleen, a Representative in Congress from the 
      State of Hawaii............................................     3
        Prepared statement of....................................     4
    McClintock, Hon. Tom, a Representative in Congress from the 
      State of California........................................     2
        Prepared statement of....................................     3

Statement of Witnesses:

    Argust, Marcia, Director, Restore America's Parks, The Pew 
      Charitable Trusts, Washington, DC..........................    15
        Prepared statement of....................................    16
    Hoyt, Callie, Manager, Federal Affairs, Motorcycle Industry 
      Council, Arlington, Virginia...............................    27
        Prepared statement of....................................    29
    Hurd, Hon. Will, a Representative in Congress from the State 
      of Texas...................................................     8
        Prepared statement of....................................     8
    Lee-Ashley, Matt, Senior Fellow, Center for American 
      Progress, Washington, DC...................................    21
        Prepared statement of....................................    23
    Simpson, Hon. Michael K., a Representative in Congress from 
      the State of Idaho.........................................     5
        Prepared statement of....................................     7
    Smith, P. Daniel, Deputy Director, National Park Service, 
      U.S. Department of the Interior, Washington, DC............     9
        Prepared statement of....................................    11
        Questions submitted for the record.......................    12

Additional Materials Submitted for the Record:

    List of documents submitted for the record retained in the 
      Committee's official files.................................    50
    National Parks Conservation Association, NPCA Positions on 
      H.R. 5210 and H.R. 2584....................................    45
    National Trust for Historic Preservation, Testimony on H.R. 
      5210 and H.R. 2584.........................................    47
    Public Lands Alliance, Statement on H.R. 5210 and H.R. 2584..    49
                                     



   LEGISLATIVE HEARING ON H.R. 5210, TO ESTABLISH THE NATIONAL PARK 
 RESTORATION FUND, AND FOR OTHER PURPOSES, ``NATIONAL PARK RESTORATION 
    ACT''; AND H.R. 2584, TO AMEND TITLE 54, UNITED STATES CODE, TO 
ESTABLISH, FUND, AND PROVIDE FOR THE USE OF AMOUNTS IN A NATIONAL PARK 
 SERVICE LEGACY RESTORATION FUND TO ADDRESS THE MAINTENANCE BACKLOG OF 
  THE NATIONAL PARK SERVICE, AND FOR OTHER PURPOSES, ``NATIONAL PARK 
                      SERVICE LEGACY ACT OF 2017''

                              ----------                              


                        Tuesday, March 20, 2018

                     U.S. House of Representatives

                     Subcommittee on Federal Lands

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 2:22 p.m., in 
room 1324, Longworth House Office Building, Hon. Tom McClintock 
[Chairman of the Subcommittee] presiding.
    Present: Representatives McClintock, Labrador, Tipton, 
Westerman, Bergman, Cheney, Gianforte; and Hanabusa.
    Also present: Representatives Simpson, Hurd, Johnson, 
Graves; and Huffman.
    Mr. McClintock. The Subcommittee on Federal Lands will come 
to order, and I apologize for our delayed convening, but votes 
summoned us on the Floor.
    We are here today to hear two bills. I would begin by 
asking unanimous consent that all Members on the witness list 
testifying on today's panel be allowed to sit with the 
Subcommittee, give their testimony, and participate on the 
hearing from the dais. That would be Mr. Hurd, Mr. Simpson, Mr. 
Johnson, Mr. Graves, and Mr. Huffman.
    Without objection.
    In addition, I would remind the Committee that under 
Committee Rule 4(f), any oral opening statements at hearings 
are limited to the Chairman, Ranking Minority Member, and Vice 
Chairman to allow us to hear from our witnesses. I would ask 
unanimous consent that all other Members' opening statements be 
made part of the hearing record if they are submitted to the 
Subcommittee Clerk by 5:00 p.m. today.
    Without objection, so ordered.
    I will now begin my opening statement.

   STATEMENT OF THE HON. TOM McCLINTOCK, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McClintock. The Subcommittee meets today to hear 
testimony on two bills that seek to reduce the National Park 
Service's $11.6 billion deferred maintenance backlog.
    Two weeks ago, the Natural Resources Committee held an 
oversight hearing to explore the maintenance backlogs facing 
our Nation's public land management agencies. Last week, the 
Committee heard testimony from Secretary Zinke, and much of the 
conversation focused on finding a solution to the Department's 
maintenance backlog, the majority of which lies in the National 
Park Service.
    The Federal Lands Subcommittee has three principal goals: 
to restore public access to the public lands, to restore sound 
management to the public lands, and restore the Federal 
Government as a good neighbor to those communities most 
impacted by the Federal lands.
    Several years ago, I asked John Jervis, the Director of the 
National Park Service, whether, if he had a choice, would he 
put new dollars into land acquisition or into deferred 
maintenance. He chose maintenance. Instead, we have continued 
to add new holdings to the Federal estate, while continuing to 
neglect the land we already hold.
    Louie Gohmert, a few years ago, compared this policy to the 
town miser whose mansion has become a town eyesore while he 
spends all of his money buying up his neighbors' properties.
    We took these lands into trust for the American public's 
use, resort, and recreation. This responsibility requires 
active management, not benign neglect. Fortunately, our public 
lands, properly managed, also produce revenues that can and 
ought to be used for their perpetual restoration, management, 
and enhancement.
    Today, we will be discussing bills introduced by 
Congressman Simpson and Congressman Hurd seeking new funding 
sources for critical public lands infrastructure.
    H.R. 2584, the National Park Service Legacy Act, by 
Congressman Hurd, would provide direct financing for the high-
priority deferred maintenance needs of the National Park 
Service. The fund draws from 30 years of mineral revenues from 
2018 to 2047 not already allocated by law. Eighty percent of 
the fund will be used to repair assets, including historic 
structures, visitor facilities, trails, water and utility 
systems, and enhancing access, health and safety, and 
recreation. The other 20 percent will be used to restore 
transportation-related infrastructure such as roads, tunnels, 
and bridges. The bill also promotes public-private 
collaboration by incentivizing projects that have a private 
donation cost-share component.
    H.R. 5210, introduced by Congressman Simpson of Idaho would 
establish the National Park Restoration Fund. This bill 
provides mandatory funding to address the deferred maintenance 
backlog of the National Park Service. The new fund will receive 
50 percent of all energy production on Federal lands, including 
renewable energy, over the amounts already expected, that are 
not already allocated to other purposes. The program expires 
after 10 years, or sooner if it has received deposits of $18 
billion. This would assure that we are not adding to a deficit 
that now imperils all government responsibilities.
    I would like to thank our witnesses for appearing before 
the Subcommittee today and look forward to hearing their 
testimony.

    [The prepared statement of Mr. McClintock follows:]
 Prepared Statement of the Hon. Tom McClintock, Chairman, Subcommittee 
                            on Federal Lands
    The Subcommittee meets today to hear testimony on two bills that 
seek to reduce the National Park Service's $11.6 billion deferred 
maintenance backlog.
    Two weeks ago, the Natural Resources Committee held an oversight 
hearing to explore the maintenance backlogs facing our Nation's public 
land management agencies. Last week, the Committee heard testimony from 
Secretary Zinke and much of the conversation focused on finding a 
solution to the Department's maintenance backlog, the majority of which 
lies in the National Park Service.
    The Federal Lands Subcommittee has three principal goals: to 
restore public access to the public lands; to restore sound management 
to the public lands; and to restore the Federal Government as a good 
neighbor to those communities most impacted by the Federal lands.
    Several years ago, I asked Jon Jervis, the Director of the National 
Park Service, whether he would put new dollars into land acquisition or 
deferred maintenance, he chose maintenance. Instead, we have continued 
to add new holdings to the Federal estate while continuing to neglect 
the land we already hold.
    Louie Gohmert compared this policy to the town miser, whose mansion 
has become the town eyesore while he spends his money buying up his 
neighbors' properties.
    We took these lands into trust for the American people's ``use, 
resort and recreation.'' This responsibility requires active 
management--not benign neglect. Fortunately, our public lands, properly 
managed, also produce revenues that can and ought to be used for their 
perpetual restoration, management and enhancement.
    Today, we will be discussing bills introduced by Congressman 
Simpson and Congressman Hurd seeking new funding sources for critical 
public lands infrastructure.
    H.R. 2584, the National Park Service Legacy Act, by Congressman 
Will Hurd, would provide direct financing for the high-priority 
deferred maintenance needs of the National Park Service. The Fund draws 
from 30 years of mineral revenues (FY 2018-FY 2047) not already 
allocated by law. Eighty percent of the Fund will be used to repair 
assets including historic structures, visitor facilities, trails, water 
and utility systems, and enhancing access, health and safety, and 
recreation.
    The other 20 percent will be used to restore transportation-related 
infrastructure, such as roads, tunnels, and bridges. The bill also 
promotes public-private collaboration by incentivizing projects that 
have a private donation cost-share component.
    H.R. 5210, introduced by Congressman Simpson of Idaho would 
establish the National Park Restoration Fund. This bill provides 
mandatory funding to address the deferred maintenance backlog of the 
National Park Service. The new fund will receive 50 percent of all 
energy production on Federal lands, including renewable energy, over 
the amounts already expected, that are not already allocated for other 
purposes. The program expires after 10 years or sooner if it has 
received deposits of $18 billion. This would assure that we are not 
adding to a deficit that now imperils all government responsibilities.
    I'd like to thank our witnesses for appearing before the 
Subcommittee today and look forward to hearing their testimony.

                                 ______
                                 

    Mr. McClintock. I am now pleased to yield to the 
gentlelady, the Ranking Member of the Subcommittee, Ms. 
Hanabusa.

  STATEMENT OF THE HON. COLLEEN HANABUSA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF HAWAII

    Ms. Hanabusa. Thank you, Mr. Chairman. First, I want to say 
that I am pleased we are able to have this hearing on both of 
these proposals to address deferred maintenance at our national 
parks and public lands. Both bills propose strategies to 
finance deferred maintenance and infrastructure needs across 
the National Park System.
    As we heard from the Secretary last week, addressing 
deferred maintenance is a huge priority that requires a 
significant dedicated funding stream. National parks are more 
popular than ever. Annual visitation numbers continue to break 
records, with over 330 million visits last year alone, with 
visitors spending an estimated $18.4 billion in local gateway 
regions.
    Unfortunately, current funding and revenue streams have not 
been able to address the needs of aging assets and 
infrastructure.
    Our local superintendents are struggling to keep up with 
repairs and rehabilitation, due to shrinking appropriations and 
aging infrastructure. We see it in my home state of Hawaii, 
where there is nearly $12 million of deferred maintenance at 
Pearl Harbor alone, and $85 million at the Hawaii Volcanoes 
National Park.
    In 2016, the National Park Service celebrated its 
Centennial, which was an incredible milestone and reminder that 
many of our parks are old. In the same year, Chairman Bishop 
and Ranking Member Grijalva worked together to pass the 
National Park Service Centennial Act to celebrate the first 100 
years of national parks. That bill included new revenue streams 
to support visitor services and created programs to leverage 
private philanthropy.
    This was a great first step, but to paraphrase Chairman 
Bishop, we can't expect revenues from cake sales to cover the 
$11.6 billion backlog of deferred maintenance--$11.6 billion 
backlog. This is why I am an original co-sponsor of the 
National Park Service Legacy Act, with Representatives Hurd, 
Kilmer, and Reichert, and why I co-sponsored the National Park 
Restoration Act, introduced by Representatives Simpson and 
Schrader.
    If we all agree that addressing deferred maintenance at our 
parks and public lands is a priority, then we should be able to 
find a bipartisan solution that would allow the National Park 
Service adequate resources to seriously address its maintenance 
backlog.
    Our national parks are a public legacy, and it is our 
responsibility to ensure that they thrive for many generations 
to come. Of course, addressing deferred maintenance is just one 
piece of the puzzle. We must remember that sufficient resources 
are also provided for day-to-day operations and partnerships to 
ensure visitor satisfaction.
    With that, I look forward to today's discussion about the 
two proposals before us.
    I yield back the remainder of my time, Mr. Chairman.

    [The prepared statement of Ms. Hanabusa follows:]
   Prepared Statement of the Hon. Colleen Hanabusa, Ranking Member, 
                     Subcommittee on Federal Lands
    Thank you, Mr. Chairman. First, I want to say that I'm pleased we 
are able to have this hearing on both of these proposals to address 
deferred maintenance at our national parks and public lands. Both bills 
propose strategies to finance deferred maintenance and infrastructure 
needs across the National Park System.
    As we heard from the Secretary last week, addressing deferred 
maintenance is a huge priority that requires a significant dedicated 
funding stream. National parks are more popular than ever--annual 
visitation numbers continue to break records, with over 330 million 
visits last year alone, with visitors spending an estimated $18.4 
billion in local gateway regions.
    Unfortunately, current funding and revenue streams have not been 
able to address the needs of aging assets and infrastructure.
    Our local superintendents are struggling to keep up with repairs 
and rehabilitation due to shrinking appropriations and aging 
infrastructure. We see it in my home state of Hawaii, where there is 
nearly $12 million of deferred maintenance at Pearl Harbor and $85 
million at Hawaii Volcanoes National Park.
    In 2016, the National Park Service celebrated its Centennial, which 
was an incredible milestone, and a reminder that many of our parks are 
old. In the same year, Chairman Bishop and Ranking Member Grijalva 
worked together to pass the National Park Service Centennial Act to 
celebrate the first 100 years of national parks. That bill included new 
revenue streams to support visitor services and created programs to 
leverage private philanthropy.
    This was a great first step, but to paraphrase Chairman Bishop, we 
can't expect revenues from cake sales to cover the $11.6 billion 
backlog of deferred maintenance. This is why I am an original co-
sponsor of the National Park Service Legacy Act, with Representatives 
Hurd, Kilmer, and Reichert and why I co-sponsored the National Park 
Restoration Act, introduced by Representatives Simpson and Schrader.
    If we all agree that addressing deferred maintenance at our parks 
and public lands is a priority, then we should be able to find a 
bipartisan solution that would allow the National Park Service adequate 
resources to seriously address its maintenance backlog.
    Our national parks are a public legacy, and it is our 
responsibility to ensure that they thrive for many generations to come. 
Of course, addressing deferred maintenance is just one piece of the 
puzzle. We must remember that sufficient resources are also provided 
for day-to-day operations and partnerships to ensure visitor 
satisfaction.
    With that, I look forward to today's discussion about the two 
proposals before us and yield back the remainder of my time.

                                 ______
                                 

    Mr. McClintock. Great. Thank you very much. We will next 
proceed to Congressman Michael Simpson, who represents Idaho's 
2nd District for 5 minutes.

 STATEMENT OF THE HON. MICHAEL K. SIMPSON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IDAHO

    Mr. Simpson. Thank you, Chairman McClintock. Let me begin 
by thanking you for allowing me to testify in front of your 
Subcommittee. Also, thank you to Ranking Member Hanabusa for 
co-sponsoring both this legislation and Congressman Hurd's 
legislation. You have an important job of overseeing our 
Federal lands, and it is vital that we care for them because 
they belong to all of us.
    Our national parks have long been thought of as America's 
best idea. In fact, they have other complimentary names, such 
as our crown jewels. But more than anything, they are ours. The 
parks belong to the American people, and we should care for 
them as our own.
    It is long past due that we discuss the backlog maintenance 
in our national parks. Growing up in eastern Idaho, it was a 
regular event to pack up the car each weekend and visit 
Yellowstone. It was easy to spend a day in the park and not 
have to wait in any lines.
    However, that was a different time. Today, Yellowstone has 
nearly 4 million annual visitors, and the backlog in 
maintenance is upwards of $500 million. As a member of the 
House Interior Appropriations Subcommittee, I can tell you that 
their annual appropriated budget of $2.9 billion for the entire 
agency simply won't be able to account for the $11.6 billion 
backlog in maintenance.
    To start the conversation toward solving this problem, I 
introduced the Lands Act to help pay for both backlog 
maintenance and the Land and Water Conservation Fund. I was 
careful when writing the bill to not dip into the LWCF funds to 
pay for the backlog maintenance. That is an important concept 
that has guided this effort. I am pleased all of the bills we 
are considering today honor that promise, and I look forward to 
working with Chairman Bishop and this Subcommittee to address 
the LWCF, as well.
    Moving forward, I began working with Secretary Zinke, 
Senators Alexander and King, and Congressman Schrader on a 
proposal that we could all support to fix the parks, the 
National Park Restoration Act. This legislation uses 
unobligated revenues from all energy sources, including 
renewable energies, to pay for the backlog maintenance in 
national parks.
    The bill uses the exact same funding mechanism as popular 
programs like LWCF and the Historic Preservation Fund without 
compromising their revenues. It only draws on revenues that 
would be due to the Treasury.
    The bill is projected to raise over $6.8 billion over 10 
years, which would make a significant dent in the backlog 
maintenance. I am thankful to Congressman Hurd, Ranking Member 
Hanabusa, Congressman Garamendi, and Congressman Schrader for 
supporting this bill in an effort to fix our parks. As a 
supporter of the Bureau of Indian Education schools, I also 
look forward to addressing that critical need in this process, 
as Secretary Zinke has suggested.
    We are also considering the Legacy Act, introduced by 
Congressman Hurd. We all share the common goal of fixing this 
growing problem, and the Legacy Act is another positive 
addition to the conversation. I do not view these proposals as 
competing; they are complementary. They both use the same 
revenue source to pay for backlog maintenance, and both have 
bipartisan support.
    A key element to enacting policy in this environment is 
advocating for fiscally responsible legislation. The National 
Park Restoration Act does that by creating a baseline of 
projected energy revenue that must be exceeded before revenues 
could occur to the fund. This mechanism was put in place to 
control the costs associated with the bill, and is a 
fundamental component to winning support from the House, 
Senate, and Administration, a required step to become law.
    As a supporter of the national parks, LWCF, and other 
important programs that are critical to taking care of our 
public lands, I am asking that the members of the Committee 
examine the legislation for what it is, an honest effort to fix 
the parks. I don't want to pit any programs against each other, 
I simply want to focus our efforts on using the long-time 
practice of existing energy revenues to fix public lands. I 
think that if this Committee can look at the various proposals 
that have been made, they can take the best of each and get a 
bill that will be bipartisan and that we can all support.
    Thank you again, Chairman McClintock and Ranking Member 
Hanabusa, and I look forward to working with all advocates for 
our national parks to fix the backlog maintenance.

    [The prepared statement of Mr. Simpson follows:]
Prepared Statement of the Hon. Michael K. Simpson, a Representative in 
                    Congress from the State of Idaho
    Chairman McClintock and Ranking Member Hanabusa, Let me begin by 
thanking you for allowing me to testify in front of your Subcommittee. 
Also thank you to Ranking Member Hanabusa for co-sponsoring my 
legislation. You have an important job of overseeing our Federal lands 
and it is vital that we care for them because they belong to all of us.
    Our national parks have long been thought of as America's ``Best 
Idea.'' In fact, they have other complimentary names such as our 
``Crown Jewels.'' But more than anything, they are ``Ours.'' The parks 
belong to the American people and we should care for them as our own.
    It is long past due that we discuss the backlog maintenance in our 
national parks. Growing up in eastern Idaho it was a regular event to 
pack into the car each weekend to visit Yellowstone. It was easy to 
spend a day in the park and not have to wait in any lines. However, 
that was a different time.
    Today, Yellowstone has nearly 4 million annual visitors and their 
backlog in maintenance is upwards of $500 million. As a member of the 
House Interior Appropriations Subcommittee, I can tell you that their 
annual appropriated budget of $2.9 billion, for the entire agency, 
simply won't be able to account for the $11.6 billion backlog in 
maintenance.
    To start the conversation toward solving this problem I introduced 
the LAND Act to help pay for both backlog maintenance and the Land and 
Water Conservation Fund. I was careful when writing the bill to not dip 
into LWCF funds to pay for backlog maintenance. That is an important 
concept that has guided this effort. I am pleased all of the bills we 
are considering today honor that promise and I look forward to working 
with Chairman Bishop and his Committee to address LWCF as well.
    Moving forward, I began working with Secretary Zinke, Senators 
Alexander and King, and Congressman Schrader on a proposal that we 
could all support to fix the parks--the National Park Restoration Act. 
This legislation uses unobligated revenues from all energy sources--
including renewables--to pay for the backlog maintenance in national 
parks. The bill uses the exact same funding mechanism as popular 
programs like LWCF and the Historic Preservation Fund, without 
compromising their revenues. It only draws on revenues that would 
otherwise be due to the Treasury. The bill is projected to raise $6.8 
billion over 10 years, which would make a significant dent in the 
backlog maintenance. I am thankful to Congressman Hurd, Ranking Member 
Hanabusa, Congressman Garamendi, and Congressman Schrader for 
supporting this bill in an effort to fix our parks. As a supporter of 
Bureau of Indian Education schools, I also look forward to addressing 
that critical need in this process as Secretary Zinke has suggested.
    We are also considering The Legacy Act introduced by Congressman 
Hurd. We all share the common goal of fixing this growing problem and 
The Legacy Act is another positive addition to the conversation. I do 
not view these proposals as competing. They are complimentary. They 
both use the same revenue source to pay for backlog maintenance and 
both have bipartisan support.
    A key element to enacting policy in this environment is advocating 
for fiscally responsible legislation. The National Park Restoration Act 
does that by creating a baseline of projected energy revenues that must 
be exceeded before revenues could accrue into the fund. This mechanism 
was put in place to control the costs associated with the bill, and is 
a fundamental component to winning support from the House, Senate, and 
Administration--a required step to become a law.
    As a supporter of national parks, LWCF, and other important 
programs that are critical to taking care of our public lands, I am 
asking that members of the Committee examine the legislation for what 
it is--an honest effort to fix the parks. I don't want to pit any 
programs against each other. I simply want to focus our efforts on 
using the longtime practice of existing energy revenues to fix public 
lands.
    Thank you again Chairman McClintock and Ranking Member Hanabusa and 
I look forward to working with all advocates for our national parks to 
fix backlog maintenance.

                                 ______
                                 

    Mr. McClintock. Great. Thank you.
    Now we will hear from Congressman Hurd, representing Texas' 
23rd District.

 STATEMENT OF THE HON. WILL HURD, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Hurd. Thank you, Chairman and Ranking Member. As the 
Representative from the 23rd Congressional District of Texas, I 
have the distinct honor of advocating for eight incredible 
national parks. Our national parks are an integral part of the 
American experience, as we all know. And I have seen firsthand 
how the eight parks in my district, including Big Bend and the 
San Antonio missions, provide immeasurable cultural, 
environmental, and economic benefits.
    Each park's landscape has a unique story that allows us to 
understand our past, appreciate our present, and ensure they 
are all available in the future.
    For these parks to remain beautiful and accessible, we have 
a responsibility as a Nation to care for them and maintain 
them. The National Park Service was created just over 100 years 
ago to do just that. But unfortunately, NPS currently faces a 
nationwide backlog of more than $11 billion to repair roads, 
visitor facilities, trails, and other park structures--$147 
million of that backlogged maintenance is in Texas alone.
    I have seen how much of an impact this has on the 
maintenance of our parks, which is why I introduced the 
National Park Service Legacy Act of 2017 with my colleagues, 
including the distinguished Ranking Member from Hawaii, 
Representative Hanabusa. The bipartisan, bicameral bill would 
address the present backlog by distributing currently 
unassigned Federal mineral revenues back into a restoration 
fund. The funds can be used for overdue repairs so that our 
parks can remain beautiful and accessible for future 
generations of park-goers to enjoy.
    My bill demonstrates that the call for Congress to fix our 
aging parks is being heard, and has been endorsed by park 
champions like the National Parks Conservation Association, Pew 
Charitable Trusts, whom I would like to thank for being here 
today, and the National Trust for Historic Preservation.
    But our bill is not the only solution to this expanding and 
pervasive problem. My colleague and friend from the great state 
of Idaho has worked tirelessly on his bill, which, if enacted, 
would accomplish these same goals. I am tremendously supportive 
of the Chairman's efforts, and I strongly encourage my 
colleagues to support both my bill and Chairman Simpson's bill.
    I want to thank the Committee for allowing me to speak, and 
I yield back the balance of my time.

    [The prepared statement of Mr. Hurd follows:]
Prepared Statement of the Hon. Will Hurd, a Representative in Congress 
                        from the State of Texas
    As Representative of the 23rd Congressional District of Texas, I 
have the distinct honor of advocating for eight incredible national 
parks.
    Our national parks are an integral part of the American experience, 
and I've seen firsthand how the eight parks in my district, including 
Big Bend and the San Antonio missions, provide immeasurable cultural, 
environmental and economic benefits.
    Each park's landscape has a unique story that allows us to 
understand our past, appreciate our present, and ensure they are 
available in the future. For these parks to remain beautiful and 
accessible, we have a responsibility as a Nation to care for and 
maintain them.
    The National Park Service (NPS) was created just over 100 years ago 
to do just that. But unfortunately, NPS currently faces a nationwide 
backlog of more than $11 billion to repair roads, visitor facilities, 
trails, and other park structures; $147 million of that backlogged 
maintenance is in Texas alone.
    I've seen how much of an impact this has on the maintenance of our 
parks which is why I introduced the National Park Service Legacy Act of 
2017 with my colleagues, including the distinguished Ranking Member 
from Hawaii, Rep. Hanabusa.
    The bipartisan, bicameral bill would address the present backlog by 
distributing currently unassigned Federal mineral revenues back into a 
restoration fund. The funds can be used for overdue repairs so that our 
parks can remain beautiful and accessible for future generations of 
park-goers to enjoy.
    My bill demonstrates that the call for Congress to fix our aging 
parks is being heard, and has been endorsed by park champions like the 
National Parks Conservation Association, Pew Charitable Trusts (whom 
I'd like to thank for being here today), and the National Trust for 
Historic Preservation.
    But our bill isn't the only solution to this expanding and 
pervasive problem. My colleague and friend from the great state of 
Idaho has worked tirelessly on his bill, which, if enacted, would 
accomplish the same goals as my own. I am tremendously supportive of 
the Chairman's efforts, and strongly encourage my colleagues to support 
both my bill, and Chairman Simpson's bill. I yield back the balance of 
my time.

                                 ______
                                 

    Mr. McClintock. Thank you.
    We will now hear from our four witnesses, and begin with 
Mr. P. Daniel Smith, Deputy Director of the National Park 
Service, U.S. Department of the Interior, who comes to us all 
the way from Washington, DC.

 STATEMENT OF P. DANIEL SMITH, DEPUTY DIRECTOR, NATIONAL PARK 
    SERVICE, U.S. DEPARTMENT OF THE INTERIOR, WASHINGTON, DC

    Mr. Smith. Chairman McClintock, Ranking Member Hanabusa, 
and members of the Committee, thank you for the opportunity to 
present the Department of the Interior's views on H.R. 2584, 
the National Park Service Legacy Act, and H.R. 5210, the 
National Park Restoration Act. I will summarize my testimony 
and submit my full statement for the record.
    The Department supports H.R. 5210, the National Park 
Restoration Act. We recommend amending the bill to make the 
U.S. Fish and Wildlife Service and the Bureau of Indian Affairs 
Education eligible for funding that would be available through 
the bill's proposed National Park Restoration Fund. This would 
make the bill consistent with the President's Fiscal Year 2019 
budget proposal.
    We appreciate that H.R. 2584 seeks to accomplish the same 
goal of providing dedicated funding for the deferred 
maintenance backlog, but we believe that H.R. 5210 would be a 
better approach to addressing the problem.
    H.R. 5210 would establish a permanent treasury account 
called the National Park Restoration Fund. Energy development 
revenues from both renewable and conventional sources would be 
deposited into the fund. The fund would sunset after 10 years, 
or once it reaches its $18 billion cap, whichever happens 
first.
    H.R. 5210 protects established revenue-sharing payments to 
the states under the Mineral Leasing Act, the Gulf of Mexico 
Energy Security Act, and other statutes, as well as allocations 
made to other established funds such as the Reclamation Fund, 
the Land and Water Conservation Fund, and all other dedicated 
uses of onshore and offshore revenues. These existing uses 
would receive their funding before the Restoration Fund 
receives anything.
    The bill identifies total energy revenue collection 
thresholds for each of the next 10 years. If collections exceed 
those amounts, and after all existing obligations are met, half 
of the revenue above that baseline would go to the National 
Park Service maintenance backlog. The other half would go to 
the Treasury.
    The Restoration Fund would receive revenue from all energy 
development occurring on public lands and waters, unlike the 
LWCF and the Legacy Fund, which rely solely on mineral 
revenues. The Administration's all-of-the-above energy 
development strategy aligns with the funding mechanism for the 
Restoration Fund.
    H.R. 2584 would establish the National Park Legacy Fund 
from Federal mineral revenues. The bill requires 80 percent of 
funds to be used for building, utilities, and visitor 
facilities, and 20 percent to be used for transportation 
assets. Deposits would be made to the Legacy Fund from 2018 to 
2047, ranging from $50 million to $500 million per year.
    We believe H.R. 5210 holds greater potential for providing 
significant near-term funding than H.R. 2584 does. According to 
the Office of Management and Budget, the Public Lands 
Infrastructure Fund, which is the blueprint for H.R. 5210, 
would produce an estimated $6.8 billion in expenditures for 
deferred maintenance over the next 10 years, versus less than 
$2 billion in the next 10 years under H.R. 2584.
    Appropriated funds are the current primary source of 
funding for deferred maintenance. But as the Secretary noted 
last week in his budget hearings, we cannot rely solely on 
appropriated dollars to address this problem. The backlog of 
projects at our national parks limits access, lessens visitor 
experiences, impacts recreational opportunities, and 
compromises public health and safety. The networks of roads, 
trails, restrooms, water treatment systems, and visitor centers 
are aging and are exceeding the capacity of visitors they were 
designed to hold and support.
    In conclusion, I would like to reiterate a few key points 
regarding H.R. 5210.
    One, this bill does not interfere with GOMESA, LWCF, or any 
other dedicated funds.
    Two, nothing in this bill authorizes new areas for energy 
development, nor is there any proposal to increase energy 
production in our national parks.
    Three, this bill is not an incentive to develop more 
energy. The Administration remains very clear that it supports 
American energy dominance. The question before us today is how 
we come together to reinvest revenues back into our public 
lands.
    We greatly appreciate the efforts of Chairman Bishop and 
this Subcommittee for today's hearing. We also thank Chairman 
Simpson and Ranking Member Hanabusa and all of your House and 
Senate colleagues for your support of H.R. 5210. The 
Administration looks forward to continuing the same bipartisan, 
bicameral approach as we move forward.
    Mr. Chairman, that concludes my statement. I look forward 
to answering any questions.

    [The prepared statement of Mr. Smith follows:]
 Prepared Statement of P. Daniel Smith, Deputy Director, National Park 
  Service, U.S. Department of the Interior on H.R. 5210 and H.R. 2584
    Chairman McClintock, Ranking Member Hanabusa, and members of the 
Subcommittee, thank you for the opportunity to present the Department 
of the Interior's views on H.R. 2584, the National Park Service Legacy 
Act of 2017, and H.R. 5210, the National Park Restoration Act. My name 
is P. Daniel Smith and I serve as the Deputy Director of the National 
Park Service.
    The Department supports H.R. 5210, but recommends amending the bill 
to include the U.S. Fish and Wildlife Service and the Bureau of Indian 
Education for funding that would be available through the bill's 
proposed National Park Restoration Fund. Adding those two bureaus would 
make the bill consistent the President's FY 2019 budget proposal. In 
addition, we would like to work with the Committee on technical 
amendments to H.R. 5210. While we appreciate that H.R. 2584 seeks to 
accomplish the same goal of providing dedicated funding for the 
deferred maintenance backlog, we believe that H.R. 5210 would be a 
better approach to addressing the problem.
    H.R. 5210 would establish a separate account within the United 
States Treasury called the National Park Restoration Fund (Restoration 
Fund). The additional funding deposited in the Restoration Fund would 
help reduce the National Park Service's (NPS) $11.6 billion deferred 
maintenance backlog. Energy development revenues from renewable 
sources, as well as from conventional sources (oil, gas, and coal), 
would be deposited into the Restoration Fund. Once the Fund accumulates 
$18 billion or 10 years have passed, which ever happens first, deposits 
to the fund would cease.
    The National Park Restoration Act would not change or modify 
established revenue sharing payments to the states under the Mineral 
Leasing Act (MLA), the Gulf of Mexico Energy Security Act (GOMESA) or 
other statutes, nor would it affect deposits to other established 
funds, such as the Reclamation Fund, the Land and Water Conservation 
Fund (LWCF), or other dedicated uses of onshore and offshore revenues. 
These existing uses would receive all of their dedicated funding before 
the Restoration Fund receives anything. The bill identifies total 
energy revenue collection thresholds for each of the next 10 years; if 
collections exceed those amounts and after all existing obligations are 
met, half of the revenue above that baseline that would otherwise be 
deposited as miscellaneous receipts would be deposited in the 
Restoration Fund to address the NPS maintenance backlog, and the other 
half would go to the Treasury for deficit reduction.
    The Restoration Fund would be available for use, without further 
appropriation or fiscal year limitations, for the high-priority 
deferred maintenance needs that support critical infrastructure and 
visitor services, as determined by the Secretary of the Interior and 
the Director of the National Park Service. Funding could not be used 
for the acquisition of land. The bill also requires annual updates and 
reporting to Congress on the projects funded each year.
    H.R. 2584 would establish the National Park Legacy Fund (Legacy 
Fund), a dedicated fund from Federal mineral revenues that would 
otherwise not be credited to other accounts, and would be available to 
the NPS to use for high priority deferred maintenance needs. The bill 
requires 80 percent of funds to be used for building, utilities, and 
visitor facilities and 20 percent to be used for transportation assets. 
The bill would provide deposits to the Legacy Fund from 2018 to 2047, 
ranging from $50 million in each of Fiscal Years 2018, 2019, and 2020, 
to $500 million in each of Fiscal Years 2027 through 2047.
    The Department appreciates the effort of all members who co-
sponsored H.R. 2584, and the Secretary believes it is important to work 
with anyone who is willing to tackle this important cause. However, the 
Department supports H.R. 5210, the National Park Restoration Act, 
because it is more closely aligned with the legislative proposal in the 
President's FY 2019 Budget.
    If H.R. 5210 is enacted, the Restoration Fund would receive revenue 
from all energy development occurring on public lands and waters, 
including alternative and renewable sources such as solar, wind, and 
geothermal, unlike the LWCF and the Legacy Fund, which rely solely on 
mineral revenues. The Administration's ``all-of-the-above'' energy 
development strategy aligns with H.R. 5210's funding mechanism for the 
Restoration Fund.
    We believe H.R. 5210 also holds greater potential for providing 
significant near-term funding than H.R. 2584 does. H.R. 5210 would 
generate up to $18 billion over the next 10 years, versus less than $2 
billion in the next 10 years generated under H.R. 2584. The 
Department's maintenance needs are immediate and we support the 
proposal that we believe would result in more funding and in a more 
immediate fashion. Of note, the President's Fiscal Year 2019 Budget 
assumed that its legislative fund proposal, which the sponsors used as 
a reference in drafting H.R. 5210, would also allow up to $18 billion 
over the next 10 years and would result in an estimated $6.8 billion in 
expenditures for repairs and improvements over the 10-year period.
    Appropriated funds are currently the primary source of funding for 
deferred maintenance. However, as Secretary Zinke indicated before the 
Senate Energy and Natural Resources Committee, we cannot rely on solely 
on appropriated dollars to address this problem. Without a dedicated 
funding source, the deferred maintenance backlog will continue to grow. 
The backlog of projects at our national parks limit access, impair 
visitor experiences and impact recreational opportunities. The network 
of roads, trails, restrooms, water treatment systems, drinking water, 
and visitor centers are aging and are exceeding a capacity they were 
often never designed to hold and support.
    The Administration appreciates Congress' effort to author 
legislation that follows the blueprint laid out in the FY 2019 Budget. 
Although not identical, of the two funds, the National Park Restoration 
Fund is the Administration's preferred proposal to addressing the $11.6 
billion maintenance backlog that the National Park Service faces.
    As Secretary Zinke said when announcing the FY 2019 budget, 
``President Trump is absolutely right to call for a robust 
infrastructure plan that rebuilds our national parks, refuges, and 
Indian schools, and I look forward to helping him deliver on that 
historic mission . . . This is not a Republican or Democrat issue, this 
is an American issue, and the President and I are ready to work with 
absolutely anyone in Congress who is willing to get the work done.''
    We greatly appreciate the effort of this Committee, Chairmen Bishop 
and Simpson, Congresswoman Hanabusa, Senator Alexander, Senator Portman 
and all your colleagues in Congress who have sought to craft real 
solutions to our maintenance backlog. The bills we are discussing today 
reflect a bipartisan, bicameral approach that the Administration 
believes is necessary to achieve our end goals. We look forward to 
continuing to work with each of you on this issue in a collaborative 
manner that preserves and maintains our national treasures for 
generations to come.

    Mr. Chairman, this concludes my statement. I would be pleased to 
answer any questions you or other members of the Committee may have.

                                 ______
                                 

   Questions Submitted for the Record to Mr. P. Daniel Smith, Deputy 
    Director, National Park Service, U.S. Department of the Interior
                   Question Submitted by Rep. Bishop
    Question 1. Conservation Corps accomplish millions of dollars of 
important work on maintenance, infrastructure, recreation, and wildfire 
remediation that address the priorities of the Department of the 
Interior each year. This work requires a good faith understanding that 
the project development and financial agreement approval process will 
move forward in a timely fashion, in order to recruit and train 
Corpsmembers, field staff and buy supplies like trucks and chainsaws, 
tents and boots. This work is also often seasonal, meaning there's a 
short window when the work can be accomplished without further adding 
to the maintenance backlog.

    We understand there is a financial agreement review process in 
place for any project over $50,000 which has temporarily frozen nearly 
all of these projects around the country. Please share with the 
Committee what steps the Department is taking to ensure these projects 
will continue to meet Interior's needs, Corps won't have to turn away 
thousands of young adults and veterans this year, and the projects they 
have been developing with Interior will move forward in time to 
accomplish this work during the 2018 field season.

    Answer. The Department is committed to appropriately administering 
a grant and cooperative agreement program that distributed over $5.5 
billion of taxpayer money each year. Upon arriving at the Department, 
Secretary Zinke began a review of the Department's financial assistance 
programs, which included a review of the audits and investigation on 
these programs that have been conducted by the Department's Office of 
the Inspector General. To ensure the proper management and 
implementation of the Department's grants and cooperative agreements, 
the Department provided guidance to Bureaus to improve the process for 
managing discretionary financial assistance programs. With an eye on 
establishing a reasonable path forward--although minimum thresholds for 
review were initially set--the process for review is an evolving one.
    For Fiscal Year 2018 financial assistance obligations, final 
approval is required from the National Park Service (NPS) Deputy 
Director if the amount of proposed funding is under $50,000. If the 
amount is more than $50,000, the financial assistance agreement must be 
reviewed by the Senior Advisor to the Assistant Secretary Policy, 
Management, and Budget prior to award.
    In order to manage and expedite this process, the NPS established 
an internal online review system. Projects are submitted for review to 
a central database that tracks budget information, project objectives, 
and public benefits. NPS staff review each project to ensure that they 
meet Departmental and NPS priorities. Then, either the NPS Deputy 
Director or the Senior Advisor to the Assistant Secretary for Policy, 
Management, and Budget takes action on the project.
    The NPS has worked diligently to ensure that projects are 
internally reviewed and approved to allow sufficient time for funds to 
be obligated and for work to be accomplished during the 2018 field 
season.
                  Question Submitted by Rep. Grijalva
    Question 1. In H.R. 5210, the baseline for Fiscal Year 2019 is $8 
billion. In this year's budget, the Interior Department projects that 
in Fiscal Year 2019, we will collect just under $7.8 billion. So, if we 
collect $7.8 billion in Fiscal Year 2019 as expected, and the number in 
the bill for 2019 is $8 billion, no money would go to the National Park 
Restoration Fund in Fiscal Year 2019.

    However, in the budget, the Department projects $760 million going 
to the Fund in Fiscal Year 2019. Using the Depatiment's projections, no 
money would be going to fix National Park infrastructure, but then you 
also say you expect $760 million.

    How does the Department come up with that $760 million dollar 
estimate?

    Answer. The Department's budget proposal caps the funds that could 
be deposited into the Public Lands Infrastructure Fund at $18 billion. 
The budget estimated that there would be $8 billion in deposits and 
$6.8 billion in expenditures from the Fund over the course of that 10 
years. Importantly, because the deposited funds would be available 
without further appropriation, this fund would be consequential for 
facilities that currently must rely on annual appropriations to address 
the maintenance backlog at national parks, wildlife refuges and Bureau 
of Indian Education schools.

             Additional Information Provided for the Record

    Several questions were asked of Deputy Director Smith during the 
hearing that required follow-up information. That information is 
provided here.

Representative McClintock asked if the NPS was able to provide an 
answer to his question asked during the House Natural Resources 
Committee oversight hearing held on March 6, 2018, about regulations 
adding to the cost of deferred maintenance.

    Answer. The current estimated $11.6 billion NPS maintenance backlog 
reflects the labor and material costs associated with maintenance work 
that has been deferred for at least 1 year. The costs for completing 
National Environmental Policy Act and National Historic Preservation 
Act (NEPA/NHPA) compliance, planning, design, construction management 
services, and construction contingency are not included in the $11.6 
billion figure. These costs are developed at the project formulation 
stage and applied on a project-by-project basis.
    The deferred maintenance backlog estimate also does not include 
non-deferred maintenance costs. Most projects, however, include both 
deferred and non-deferred maintenance components. Correcting code 
deficiencies is an example of a non-deferred maintenance activity. The 
activity does not relate to the failure to perform scheduled 
maintenance (resulting in a deferral), but relates to upgrades needed 
to meet evolving code compliance.
    As an example, at Yosemite National Park, the Fiscal Year 2018 Line 
Item Construction (LIC) project to rehabilitate the Wawona Wastewater 
Treatment Plant includes both deferred maintenance and code compliance 
components. Much of the work involves constructing new systems needed 
to prevent effluent discharge in the Merced River as the state will no 
longer permit such discharge. The project's total net construction 
amount is $18.286 million, of which 20 percent is deferred maintenance. 
After construction contingency and construction management services are 
included, the Fiscal Year 2018 LIC project list is $21.578 million.
    As another example, at Mammoth Cave National Park, the Fiscal Year 
2018 LIC project to Reconstruct Unsafe Cave Trails has a net 
construction value of $11,775 million, of which 90 percent is deferred 
maintenance. The only non-deferred maintenance component relates to the 
addition of handrails, stairs, and ramps in some areas to enhance 
safety. After construction contingency and construction management 
services are included, the Fiscal Year 2018 LIC project list is $13,894 
million.
    The LIC program typically budgets 22 percent of the estimated net 
construction costs for compliance, and planning and design, which are 
ideally funded 1 to 2 years prior to the construction budget request. 
Because these costs are calculated for projects that combine deferred 
and non-deferred maintenance elements, we are not able to determine the 
portion of these costs that are associated only with the deferred 
maintenance components of NPS projects.

Representative Labrador asked for an example of compounding costs the 
longer a project is deferred.

    Answer. The longer that an asset's deferred maintenance goes 
unaddressed, the faster that asset will deteriorate. The industry 
standard facility backlog deterioration rate varies between 2 percent 
and 10 percent annually (http://bokcms.appa.org/pdfs/131-05281612.pdf). 
This deterioration causes the cost of repair to grow at an increasing 
rate each year. The following is a detailed example:

    Cantilever Structure--The ``Cantilever Structure'' on the Clara 
Barton Parkway (part of the George Washington Memorial Parkway) 
provides a good example of repair work that originally was less 
expensive and less complicated when the defect originally occurred. In 
2009, a large pothole (6' by 4') was found in the Cantilever 
structure's deck. At that time, the repair would have required closing 
that lane of the bridge and possibly the lanes of traffic below (part 
of the Westbound roadway overhangs the Eastbound roadway for 0.27 
miles; this is the ``cantilever''). NPS staff completed a temporary fix 
by filling the pothole, which maintained the safety of the public using 
the bridge. The more extensive and expensive fix was delayed for a 
number of reasons including the complexity of the long-term repair that 
was beyond the capability of the park's maintenance staff and a desire 
save costs by lumping the repair with a more extensive project planned 
for the Clara Barton Parkway which would reduce mobilization and 
demobilization costs.
    Currently, the pothole has grown both in area and in depth and now 
measures about 20' by 10'. The deterioration requires different 
materials to repair, including repairs to the steel reinforcing 
material, which is more expensive than concrete. In addition, the 
larger and deeper repair requires that the structure be supported from 
underneath (from the lower roadway) during work. The more extensive 
repair combined with the need to close more of the road for a longer 
time leads to an increase in workzone costs. The total project cost of 
this repair is now approximately $200,000, far more than it would have 
been if the pothole had been fully repaired at the time it was first 
discovered.

Representative Gianforte asked for prioritized deferred maintenance 
projects in Montana and inquired how fast work could begin on these 
projects.

    Answer. The table below shows the maintenance projects that are 
underway or planned for Fiscal Year 2018 and Fiscal Year 2019 that have 
a deferred maintenance component. These projects will begin either in 
2018 or 2019.

------------------------------------------------------------------------
Planned Year              Park                         Project
------------------------------------------------------------------------
       2018   Glacier National Park         Rehabilitate Albright Circle
                                             Sewer System
------------------------------------------------------------------------
       2018   Glacier National Park         Rehabilitate Four Comfort
                                             Stations for Accessibility
                                             at Saint Mary Campground
------------------------------------------------------------------------
       2018   Little Bighorn Battlefield    Rehabilitate Domestic Water
               National Monument             Source and Transmission
                                             System
------------------------------------------------------------------------
       2019   Big Hole National             Replace Defective Fire
               Battlefield                   Protection System for Park
                                             Housing
------------------------------------------------------------------------
       2019   Little Bighorn Battlefield    Rehabilitate Wastewater
               National Monument             Collection System
------------------------------------------------------------------------
       2019   Glacier National Park         Rehabilitate Many Glacier
                                             Sewage Force Main
                                             Connection
------------------------------------------------------------------------
       2019   Glacier National Park         Reconstruct Rock Walls and
                                             Elevate Boardwalks on
                                             Multiple Trails
------------------------------------------------------------------------
       2019   Glacier National Park         Rehabilitate Nine Sections
                                             of Trail System Associated
                                             with the Going to the Sun
                                             Road
------------------------------------------------------------------------
       2019   Glacier National Park          Rehabilitate Many Glacier
                                             Road, Route 14
------------------------------------------------------------------------


Representative Gianforte also asked about the percentages of energy 
development revenues that come from conventional energy sources (oil, 
gas, and coal), and from renewable energy sources.

    Answer. In Fiscal Year 2017, 98.7 percent of revenues were from 
conventional sources and 1.3 percent were from renewable sources.

                                 ______
                                 

    Mr. McClintock. Great. Thank you very much for your 
testimony.
    We next welcome Ms. Marcia Argust, Director of Restore 
America's Parks for the Pew Charitable Trusts, also in 
Washington, DC.

STATEMENT OF MARCIA ARGUST, DIRECTOR, RESTORE AMERICA'S PARKS, 
           THE PEW CHARITABLE TRUSTS, WASHINGTON, DC

    Ms. Argust. Thank you. Chairman McClintock, Ranking Member 
Hanabusa, and members of the Subcommittee, I appreciate the 
invitation to discuss two important legislative measures that 
seek to address the deferred maintenance issue within the 
National Park System. These measures are the National Park 
Service Legacy Act and the National Park Restoration Act. And I 
want to thank Representatives Hurd, Simpson, and Hanabusa for 
their support of these measures.
    Addressing the Park Service backlog and keeping it from 
escalating will require a bipartisan approach and 
collaboration. Bills introduced this Congress, the 
Administration's recognition of the need to resolve the 
maintenance backlog, and this hearing are signs that we are 
headed in the right direction, as well as the opening 
statements that we have heard here today.
    The National Park Service estimates that repairs at sites 
nationwide total $11.6 billion, based on 2017 data. As the 
Agency manages these sites, it is responsible for the care and 
operation of over 75,000 assets such as trails, roads, 
thousands of buildings and historic structures, battlefields, 
recreation amenities, and electrical and water systems.
    Aside from the Department of Defense, the Park Service is 
responsible for maintaining more assets than any other Federal 
agency. Over half of these assets have deferred maintenance. 
The reasons for this are aging infrastructure, visitation 
pressures, and inconsistent maintenance funding. Of the $11.6 
billion backlog, $8.8 billion is attributed to highest and 
high-priority assets, which are considered critical or very 
important to the operations and mission of a park site.
    Restoring our national parks is about much more than the 
physical integrity of a trail or a building. Restoring our 
parks is about preservation, access, and economics. In addition 
to documenting our Nation's history for future generations and 
providing visitors with access to recreation opportunities, 
parks are proven economic engines for rural and urban 
communities.
    I have submitted with my written testimony a list of almost 
3,000 organizations that support directing more resources to 
park maintenance. These groups include counties and cities, the 
state of California, the state of Louisiana, businesses, 
veterans, the tourism industry, conservation groups, unions, 
and infrastructure groups, among others.
    There are a number of important similarities between the 
Legacy Act and the Restoration Act that I would like to 
highlight. They both establish funds in the general Treasury to 
direct annual Federal funding to park repairs. They both 
prohibit funds from being used for land acquisition. They 
discourage funds from supplanting discretionary funding of Park 
Service maintenance needs. They use mineral revenues from 
energy development on Federal lands and waters as their revenue 
stream. Each contain provisions ensuring that monies going into 
their respective maintenance funds would not come from revenues 
obligated for other purposes under law, such as the Land and 
Water Conservation Fund, the Historic Preservation Fund, or 
state funds. And the bills share a number of the same sponsors 
and co-sponsors.
    Pew endorses the National Park Service Legacy Act without 
reservation.
    We offer our support of the National Park Restoration Act 
with improvements. We would like to work with the bill's 
sponsors to implement the following modifications.
    A funding mechanism that reflects a specific annual dollar 
amount is needed, ensuring a consistent source of park 
maintenance funding. As currently written, the Restoration Act 
relies on a percentage figure that means annual intake will 
vary from year to year.
    We would also like to see the addition of language to 
ensure funding parity between transportation and non-
transportation assets.
    While not on the hearing docket today, Pew also endorses 
the Land Act authored by Representative Simpson. The 
legislation seeks to provide dedicated annual funding for 
maintenance needs within public land agencies and to provide 
dedicated funding for LWCF.
    We are committed to working with the sponsors of all of 
these bills to incorporate the best provisions of each into a 
final proposal that will provide significant reduction of the 
park's backlog. Thank you.

    [The prepared statement of Ms. Argust follows:]
Prepared Statement of Marcia Argust, The Pew Charitable Trusts on H.R. 
                           5210 and H.R. 2584
    Chairman McClintock, Ranking Member Hanabusa, and members of the 
Subcommittee, thank you for the invitation to discuss dedicated Federal 
funding as a means to help address the multi-billion dollar maintenance 
needs within our National Park System. I also want to thank Chairman 
Bishop and Rep. Grijalva for their attention to the deferred 
maintenance backlog. I request that my full written statement and 
accompanying documents be submitted for the record.
    The Restore America's Parks campaign at The Pew Charitable Trusts 
seeks to conserve the natural and cultural assets of the National Park 
System by providing common-sense, long-term solutions to the deferred 
maintenance challenge facing the National Park Service (NPS).
   the deferred maintenance challenge within the national park system
    At present, NPS estimates that repairs at its more than 400 sites 
total $11.6 billion based on FY 2017 data [see Figure 1]. At these 
diverse sites--national parks, historic sites, national monuments, 
battlefields, seashores and lakeshores, national recreation areas--the 
agency is responsible for the care and operation of over 75,000 assets.

                                Figure 1
                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    .epsThese assets include over 12,000 miles of roads (over 5,000 of 
which are paved), nearly 1,500 bridges and 60 tunnels, 18,000 miles of 
trails, more than 28,000 buildings and historic structures, 
approximately 1,800 waste water systems, former military installations, 
parking lots, waterfronts, campgrounds, electrical and water systems, 
interpretive facilities, and iconic monuments and memorials.

    Aside from the Department of Defense, NPS maintains more assets 
than any other Federal agency. Over half of its 75,000 assets have 
deferred maintenance. ``Highest'' and ``high'' priority assets account 
for $8.8 billion (or 75 percent) of the $11.6 billion backlog [see 
Figure 2]. Highest priority assets are considered critical to the 
operations and mission of a park site while high priority assets are 
considered very important.

                                Figure 2
                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    .epsPew has completed a number of case studies that document the 
breadth of maintenance challenges plaguing our parks, along with a 
compilation of testimonials from local officials, community leaders, 
and businesses that depend on well-maintained, safe, and accessible 
parks to help sustain healthy local economies. The case studies and 
testimonials can be viewed on our webpage: http://www.pewtrusts.org/en/
research-and-analysis/fact-sheets/2017/05/national-park-case-studies.

    Of specific note, Utah is known worldwide for its national parks 
units. They attracted over 14 million visits in 2016, which translated 
to $1 billion in direct spending in local communities, $1.5 billion in 
state economic output and over 17,000 jobs. Yet our national parks in 
Utah have maintenance needs totaling $266 million. Zion National Park, 
one of the most visited sites, needs $65 million worth of repairs, 
primarily for roads that provide access to park resources. The floor of 
the Valley Road that runs through Zion Canyon, the park's most popular 
destination, is now accessed only by shuttle or tour buses 9 months of 
the year. It was originally built to withstand the weight of cars, but 
its heavy use by larger vehicles caused almost $3 million in damage. 
Millions more are needed to fix roads to Zion's campgrounds and visitor 
centers, and their accompanying parking lots, bridges, and tunnels.

    In California, national park units drew nearly 42 million 
recreation visits in 2016, leading to $2 billion in direct spending in 
gateway communities, $2.9 billion in state economic output, and more 
than 28,000 jobs. Despite the proven economic benefits that parks 
provide to the state of California, they have a maintenance backlog 
estimated at $1.8 billion. Yosemite National Park alone has $582 
million in repairs, over $200 million of which is attributed to roads. 
But once visitors get out of their cars, they find walking, hiking, and 
biking trails are often in disrepair as well, including the historic 
Yosemite Bike Path. Yosemite's famed Mariposa Grove has been impacted 
by a 1930s water line system that was leaking chlorinated water into 
the grove at a rate of 39,500 gallons per day, affecting the growth and 
longevity of the mature sequoias. The area will reopen this summer, 
after being closed for several years to replace the waterline system 
and other restoration efforts done in partnership with the Yosemite 
Conservancy. Aging historic properties within the park have problems 
too, including the Ansel Adams Gallery, and account for over $100 
million repair needs.
                   the causes of deferred maintenance
    Due to aging facilities, strain on resources caused by increased 
visitation in certain park sites, and unreliable funding, NPS has been 
unable to keep pace with necessary infrastructure repairs.

    <bullet> Aging infrastructure: Our National Park System is over 100 
            years old and many park units are showing their age. 
            According to a December 2016 Government Accounting Office 
            (GAO) report, most of the NPS maintenance backlog is 
            attributed to older park sites, stating specifically that 
            ``about $10.5 billion in deferred maintenance was for park 
            units established more than 40 years ago.'' Most 
            infrastructures have a finite life span, due to factors 
            such as material longevity, weather, use, and design.

     Mirroring the infrastructure problems of both urban and rural 
            areas across the country, transportation needs comprise 
            more than half of the NPS maintenance backlog and represent 
            some of the most costly infrastructure projects, including 
            roads, tunnels, and bridges.

    <bullet> Rising visitation pressures: In addition to aging 
            infrastructure, the high level of visitors that many park 
            sites have been experiencing in recent years is placing 
            increasing pressures on resources that are often already 
            showing signs of deterioration.

    <bullet> Unreliable funding: Years of underfunding compound the 
            challenges of preserving the physical integrity of NPS 
            assets. From FY 2006-FY 2015, Federal funding for the 
            repair and rehabilitation, cyclic maintenance, and line-
            item construction portions of the NPS budget declined by 33 
            percent.

     The agency is typically $250-$320 million short of the $800 
            million it estimates it needs each year to maintain 
            transportation and non-transportation assets at existing 
            conditions. We greatly appreciate the increased allocations 
            Congress has provided for NPS maintenance accounts over the 
            past several years, but more consistent, reliable funding 
            is needed to close this recurring maintenance gap and start 
            reducing the large cumulative deficit.

              why we need to address deferred maintenance
    Accompanying this statement is a list of almost 3,000 organizations 
across the Nation that support directing more resources to fixing our 
parks. These groups--counties and cities, local officials, businesses, 
veterans, the hotel and restaurant industry, conservation groups, 
unions, the recreation industry, infrastructure groups, state tourism 
societies--recognize the importance of investing in park maintenance 
for the following reasons:

    <bullet> Restoring our parks preserves and documents our Nation's 
            history for future generations.

    <bullet> Parks are economic engines for rural and urban 
            communities. Based on FY 2016 records, 330 million park 
            visits translated to $18 billion in direct spending to 
            local communities and regions, generating nearly $35 
            billion in national economic output and 318,000 jobs. A Pew 
            study commissioned last year found that fully addressing 
            the national park backlog has the potential to create and 
            support more than 110,000 additional infrastructure-related 
            jobs nationwide: http://www.pewtrusts.org/en/research-and-
            analysis/blogs/compass-points/2017/12/01/job-creation-
            potential-if-we-restore-our-parks.

    <bullet> Safe and accessible roads, trails and facilities are 
            needed so visitors can access and enjoy park resources.

    <bullet> Investing in park maintenance provides a cost-savings, as 
            postponement of projects can lead to more costly and 
            extensive repairs.

                     dedicated funding legislation
    Drawing down and preventing the escalation of a multi-billion 
maintenance backlog that has accrued over decades requires multiple 
approaches. Pew's Restore America's Parks campaign is pursuing a range 
of solutions including dedicated annual Federal funding, continued 
robust annual appropriations funding, legislative and administrative 
policy reforms, increased opportunities for public-private 
partnerships, and leveraging technology to achieve efficiencies as well 
as help generate revenue.
    Of all of these avenues, dedicated annual funding is core to 
ensuring that the NPS can keep pace with priority repairs and keep 
deferred maintenance from escalating. When Congress established the 
Park Service over 100 years ago, it mandated the agency ``. . . to 
conserve the scenery and the natural and historic objects and the 
wildlife therein and to provide for the enjoyment of the same in such 
manner and by such means as will leave them unimpaired for the 
enjoyment of future generations.'' Congress has a responsibility to 
ensure that NPS has adequate resources to fulfill the mission it gave 
the agency.
    Several bipartisan bills have been introduced this Congress to 
tackle the deferred maintenance challenge within our parks, 
specifically the National Park Service Legacy Act (H.R. 2584/S. 751) 
and the National Park Restoration Act (H.R. 5210/S. 2509). We applaud 
the sponsors and co-sponsors of all of these measures for their 
commitment to our national parks and for responding to the diverse 
voices across the Nation calling on Congress to fix our parks.
    There are a number of similarities between the Legacy Act and the 
Restoration Act. Each would establish a fund in the U.S. General 
Treasury to direct dedicated Federal funding each year to park 
maintenance needs. Both measures prohibit funds from being used for 
land acquisition and would discourage funds from replacing 
discretionary funding for NPS facility maintenance needs. The revenue 
stream for the Legacy Act and the Restoration Act would be royalties 
from energy development on Federal lands and waters that are paid into 
the General Treasury (it should be noted that the Restoration Act would 
also use revenues from renewables). Using revenues from energy 
development for mitigation purposes is not a new concept. The onshore 
and offshore mineral revenue system is an existing system set up 
decades ago under the Mineral Leasing Act of 1920 and the Outer 
Continental Shelf Lands Act of 1953. Both proposals contain language to 
ensure that monies going into the maintenance funds would not come from 
royalties payments that are obligated for other purposes under law 
(such as the Land and Water Conservation Fund, the Historic 
Preservation Fund, and state funds). Additionally, the bills share a 
number of the same co-sponsors.
    Pew endorses the National Park Service Legacy Act, introduced by 
Senators Warner (D-VA) and Portman (R-OH) and Representatives Hurd (R-
TX), Reichert (R-WA), Kilmer (D-WA), and Hanabusa (D-HI), without 
reservation. In addition to the provisions outlined above, the 
legislation would provide that 80 percent of the fund be used for 
repairs to non-transportation assets (such as historic structures, 
visitor facilities, trails, water utility systems, and assets that 
impact disability access, health and safety, and recreation) and 20 
percent be used to restore transportation-related infrastructure such 
as roads, bridges, and tunnels. This breakdown is intended to ensure 
parity for non-transportation assets, as NPS receives some dedicated 
funding from the Highway Trust Fund to address transportation needs 
(though the annual amount is far from adequate). The Legacy Act would 
direct monies from the fund to ramp up over 30 years: $50,000,000 for 
the first 3 years, $150,000,000 for the next 3 years, and $250,000,000 
for the following 3 years, and $500,000,000 for each successive year. 
This consistent, reliable annual funding is critical and would allow 
for more planning and integration of projects, cost-effectiveness, and 
the ability to tackle complicated, larger-scale maintenance issues. The 
measure also contains a provision to encourage public-private 
collaboration by incentivizing projects that have a cost-share 
component.

    Pew offers support of the National Park Restoration Act, introduced 
by Representatives Simpson (R-ID) and Schrader (D-OR) and Senators 
Alexander (R-TN), King (I-ME), Heinrich (D-NM), Daines (R-MT), Gardner 
(R-CO), Tillis (R-NC), Moore Capitol (R-WV), Manchin (D-WV), with 
improvements. We would like to work with the bill sponsors to implement 
the following improvements:

    <bullet> Modification of the funding mechanism to reflect a 
            specific annual dollar amount, ensuring a consistent, 
            reliable source of park maintenance funding. A successful 
            dedicated funding measure must provide certain and robust 
            annual funding to effectively address long overdue park 
            repairs. As currently written, the Restoration Fund would 
            take in 50 percent of energy development revenues over a 
            baseline figure projected for each of 10 years. Reliance on 
            a percentage figure means that the annual intake will vary 
            from year to year.

    <bullet> Addition of language to ensure funding parity between 
            transportation and non-transportation assets.

    While not on the hearing docket today, Pew also endorses the Land 
and National Park Deferred Maintenance Act (H.R. 2863) authored by Rep. 
Simpson. The legislation seeks to provide dedicated annual funding for 
maintenance needs within public land agencies and to provide dedicated 
funding for the Land and Water Conservation Fund over a 7-year period.
                               conclusion
    Deferred maintenance within our National Park System is a critical 
issue that needs to be addressed. It will require a bipartisan approach 
and collaboration. The bipartisan bills that have been introduced this 
Congress, the Administration's recognition of the need to resolve the 
maintenance backlog, and this hearing are signs that we're headed in 
the right direction. Pew is committed to working with the sponsors of 
all of the deferred maintenance measures to incorporate the best 
provisions of each into a final proposal that can be enacted and will 
provide a significant reduction to the national parks backlog.

    Thank you for your consideration of these views and for the 
Subcommittee's interest in addressing the maintenance backlog plaguing 
our national parks.

                                 *****

The following document was submitted as a supplement to Ms. Argust's 
testimony. This document is part of the hearing record and is being 
retained in the Committee's official files:

    --List of supporters for addressing the National Park System 
            backlog

                                 ______
                                 

    Mr. McClintock. Thank you for your testimony.
    Next, we welcome Mr. Matt Lee-Ashley, Senior Fellow at the 
Center for American Progress in Washington, DC.

    STATEMENT OF MATT LEE-ASHLEY, SENIOR FELLOW, CENTER FOR 
               AMERICAN PROGRESS, WASHINGTON, DC

    Mr. Lee-Ashley. Thank you Chairman McClintock and Ranking 
Member Hanabusa for the opportunity to testify today. My name 
is Matt Lee-Ashley, I am a Senior Fellow at the Center for 
American Progress, where I focus on natural resources, 
conservation, and public lands policy.
    Today's hearing, which focuses on strengthening our 
investments in our national parks and public lands, could not 
be more timely. The immense challenges facing our public lands 
today include the rapid loss of natural areas and wildlife 
driven by development; climate change and other stressors; and 
the need to ensure that all our parks and public lands better 
reflect the history, cultures, and needs of all Americans.
    The two bills that the Committee is discussing today aim to 
address just one element of the many challenges facing our 
public lands: how to invest in and care for the physical, 
human-built infrastructure in our national parks, and only in 
our national parks.
    To be sure, this is a vital public policy priority, but it 
is a manageable problem if we keep three things in mind.
    First, the actual size of the deferred maintenance backlog. 
The Center for American Progress' review of the National Park 
Service's maintenance database found that if you strip out the 
projects that should be paid for by private hotels and 
restaurants that operate in the parks, and the road projects 
that should be addressed through the highway bill, the backlog 
is reduced by 50 percent.
    Further, only $1.3 billion is actually listed as ``critical 
systems deferred maintenance,'' and considered by the Agency as 
their highest priority for necessary maintenance. $1.3 billion 
is still a large number, but with smart budgeting, it is 
manageable.
    Second, we need balanced and comprehensive investment in 
all our public lands. In 2016, the U.S. Forest Service, the 
U.S. Fish and Wildlife Service, and the Bureau of Land 
Management had a combined maintenance backlog approaching $8 
billion. The Trump administration's budget, meanwhile, proposes 
massive reductions in operation funding for all these agencies, 
including the elimination of 2,000 park rangers and 
professionals. Piecemeal investments to fix parking lots and 
potholes will not overcome the damage that would be done by the 
Trump administration's proposed budget cuts.
    And third, our investments in our great outdoors should 
come from predictable and sustainable funding sources, and not 
undermine the conservation values the National Park Service is 
obligated to protect. We are not a country that should have to 
allow mining in national monuments to pay for the bathrooms in 
our parks.
    The National Park Restoration Act, H.R. 5210, mirrors the 
Trump administration's Public Land Infrastructure Fund, which 
Secretary Zinke discussed last week when he appeared before 
this Committee. H.R. 5210 is burdened by many of the same 
policy shortcomings as the Administration's proposal. It would 
invest solely in the built infrastructure in the parks, roads, 
bathrooms, concessionaire facilities, but does not help the 
Park Service fulfill its mission of, for example, protecting a 
Civil War battlefield from being turned into a big box store, 
or creating a new access point for kids to go fishing.
    The bill also does not acknowledge the pressing needs of 
the other land management agencies.
    But the biggest shortcoming of H.R. 5210 is that there is 
no guarantee that even a single penny will flow to the fund. 
For the national parks to receive any benefit from this 
proposal, the Federal Government would have to collect more 
than $7.8 billion in energy revenues in 2018, a threshold that 
rises steadily to $9.4 billion by 2027. This is a dubious, 
speculative, and uncertain approach to infrastructure 
investment.
    The condition of our national parks under no circumstances 
should be dependent on the price of oil and the decisions of 
OPEC, on whether or not we drill in the Arctic refuge or near 
the coasts of Florida or North Carolina, or whether we permit a 
new coal mine near a national monument.
    The National Park Service Legacy Act of 2017, H.R. 2584, 
presents a more balanced and realistic approach. It would 
dedicate a portion of existing Federal energy revenues to 
national park maintenance projects, thus providing clear, 
certain, and stable investments through 2047. Under the bill, 
between 2018 and 2026, $1.35 billion would go to national park 
maintenance needs, which along with sensible annual 
appropriations, would fund the Agency's highest priority 
projects.
    Paired with sustained and balanced appropriations for the 
land management agencies and significant, permanent, and 
dedicated investments in conservation through the Land and 
Water Conservation Fund and other funding streams, H.R. 2584 
can contribute to sound public lands stewardship over the next 
several decades. Thank you.

    [The prepared statement of Mr. Lee-Ashley follows:]
   Prepared Statement of Matt Lee-Ashley, Senior Fellow, Center for 
              American Progress on H.R. 5210 and H.R. 2584
    Thank you, Chairman McClintock and Ranking Member Hanabusa, for the 
opportunity to testify on H.R. 5210, the National Park Restoration Act 
and H.R. 2584, The National Park Service Legacy Act of 2017.
    My name is Matt Lee-Ashley. I am a senior fellow at the Center for 
American Progress, where I focus on natural resources, conservation, 
and public lands policy. Previously, I served as deputy chief of staff 
and communications director for the U.S. Department of the Interior. I 
have also had the honor for working in the U.S. Senate for then-Senator 
Ken Salazar, on behalf of my home state of Colorado.
    When Congress passed the Organic Act that established the National 
Park Service in 1916, it directed the agency ``to conserve the scenery 
and the natural and historic objects and the wild life therein and to 
provide for the enjoyment of the same in such manner and by such means 
as will leave them unimpaired for the enjoyment of future 
generations.'' \1\
---------------------------------------------------------------------------
    \1\ 64th Congress, 1st Session, ``An Act to Establish a National 
Park Service, and for other Purposes,'' enacted August 25, 1916, 
available at https://www.nps.gov/parkhistory/online_books/anps/
anps_1i.htm.
---------------------------------------------------------------------------
    By its founding legislation, the National Park Service has a dual 
mission of protecting--unimpaired--the natural, cultural, and historic 
resources with which it is entrusted and helping Americans see and 
experience them. Conservation and enjoyment.
    Today's hearing, which focuses on strengthening our investments in 
our national parks and public lands, could not be more timely in light 
of the challenges we are experiencing in the stewardship of our natural 
and cultural resources and in protecting and expanding access to the 
great outdoors.

    This Committee well knows the conservation challenges facing our 
national parks, wildlife, and cultural and historic resources. To list 
a few:

    <bullet> We are losing our remaining wild places in the United 
            States at an alarming rate. Between 2001 and 2011 in the 
            West, we lost an average of one football field worth of 
            natural area every 2\1/2\ minutes.\2\
---------------------------------------------------------------------------
    \2\ Center for American Progress, ``The Disappearing West,'' 
accessed March 17, 2018, available at https://disappearingwest.org/.

    <bullet> Our Nation's conservation policies have slowed, but not 
            stopped, the decline of American wildlife populations. One 
            in five American plant and animal species--nearly 1,300 
            total species--is at risk of extinction.\3\
---------------------------------------------------------------------------
    \3\ Matt Lee-Ashley and Nicole Gentile, ``Confronting America's 
Wildlife Extinction Crisis,'' October, 2015, Center for American 
Progress, available at https://www.americanprogress.org/issues/green/
reports/2015/10/19/123085/confronting-americas-wildlife-extinction-
crisis/.

    <bullet> Tens of thousands of archaeological sites in the Southwest 
            are largely unprotected and vulnerable to looting and 
---------------------------------------------------------------------------
            vandalism.

    <bullet> America's Civil War battlefields--from Fredericksburg to 
            Gettysburg--face ongoing risks from encroaching 
            development.

    <bullet> Private development threatens parks and protected areas. 
            Chaco Canyon, Zion National Park, Bears Ears National 
            Monument, and Great Sand Dunes National Park in Colorado 
            are all at risk of having drilling at their doorsteps. Just 
            last week, the Bureau of Land Management sold an oil and 
            gas lease near the Upper Missouri River Breaks National 
            Monument in Montana for just $866.

    <bullet> Climate change is forcing dramatic changes to the 
            landscape. Glaciers are disappearing in Glacier National 
            Park. Joshua trees are dying in Joshua Tree National 
            Park.\4\
---------------------------------------------------------------------------
    \4\ Diana Madson, ``Climate change threatens California's iconic 
`Dr. Seuss' trees,' Yale Climate Connections, August 31, 2017, 
available at https://www.yaleclimateconnections.org/2017/08/drought-
threatens-joshua-trees/; U.S. Geological Survey, ``Retreat of Glaciers 
in Glacier National Park,'' accessed March 17, 2018, available at 
https://www.usgs.gov/centers/norock/science/retreat-glaciers-glacier-
national-park?qt-science_center_objects=0#qt-science_center_objects.
---------------------------------------------------------------------------
    Alongside the real and pressing conservation problems with which we 
are confronted, we are grappling with how to ensure that current and 
future generations of Americans have the opportunity to get outdoors 
and experience the natural, historic, and cultural wonders that belong 
to them. For example:

    <bullet> A growing population needs more ways and more places to 
            get outdoors. Case in point: our national parks welcomed 
            nearly 331 million visitors in 2016 and 2017--a record 
            level of visitation.\5\ This is wonderful news, but unless 
            we expand close-to-home recreation opportunities and 
            protect other deserving places, we are going to see more 
            and more crowding and pressure on our park system.
---------------------------------------------------------------------------
    \5\ U.S. Department of the Interior, ``Secretary Zinke Announces 
Record Visitation in America's National Parks,'' March 10, 2017, 
available at https://www.doi.gov/pressreleases/secretary-zinke-
announces-record-visitation-americas-national-parks; National Park 
Service, ``National Park Service Visitor Use Statistics,'' accessed 
March 17, 2018, available at: https://irma.nps.gov/Stats/SSRSReports/
National%20Reports/Annual%20Summary%20Report%20(1904%20-
%20Last%20Calendar%20Year.

    <bullet> We need to be doing more to engage all Americans--from all 
            backgrounds and all walks of life--in our public lands. For 
            the National Park Service, that means protecting places 
            that help tell the story of all Americans. A recent Center 
            for Progress analysis found that only a small portion of 
            national park sites has a focus on communities of color and 
            traditionally under-represented communities. Only 9 of more 
            than 400 national park units, for example, have a primary 
            focus on the contributions of women to our history. Only 
            three have a primary focus on Asian-American history.\6\
---------------------------------------------------------------------------
    \6\ Jenny Rowland, ``Parks for All,'' Center for American Progress, 
August, 2016, available at: https://cdn.americanprogress.org/wp-
content/uploads/2016/08/22093415/CentennialAgenda-report1.pdf.

    <bullet> As a result of checkerboard land ownership patterns in 
            some areas of the country, too many public lands are not 
            actually publicly accessible. According to one study, more 
            than 4 million acres of public lands in the West--an area 
            nearly twice the size of Yellowstone National Park--are off 
            limits to the public because visitors would have to cross 
            private land or because there are no legal entry points.\7\
---------------------------------------------------------------------------
    \7\ Center for Western Priorities, ``Landlocked: Measuring Public 
Land Access in the West,'' November, 2013, available at http://
westernpriorities.org/2013/11/25/new-report-landlocked-measuring-
public-land-access-in-the-west/.

    <bullet> Finally, to welcome visitors to our public lands, we need 
            to invest in the physical infrastructure that visitors need 
            and want, including roads, bathrooms, and campgrounds. But 
            we also need to support the rangers, law enforcement 
            personnel, scientists, and other professionals who help 
---------------------------------------------------------------------------
            take care of the resources and who protect public safety.

               maintenance projects in the national parks
    The two bills that the Committee is discussing today aim to address 
just one element of the many challenges I mentioned: how to invest in 
and care for the physical, human-built infrastructure in our national 
parks.
    To be sure, this is a vital public policy priority, but, with the 
right approach and investments, it is a manageable problem.
    First, it is important to clarify the scale and scope of the 
problem we are trying to solve. The National Park Service reports that 
it has more than $11 billion in ``deferred maintenance'' needs.\8\ That 
staggering number has rightly caused widespread concern. Congress, 
however, should scrutinize this number carefully to understand the 
highest and most pressing needs and tailor solutions accordingly. 
Maintenance of roads, tunnels, and parking lots accounts for roughly 
half of that figure; the U.S. Department of Transportation and their 
Federal highway programs therefore play a critical role in addressing 
the backlog.\9\
---------------------------------------------------------------------------
    \8\ National Park Service, ``NPS Deferred Maintenance Reports,'' 
accessed March 17, 2018, available at: https://www.nps.gov/subjects/
plandesignconstruct/defermain.htm.
    \9\ Laura B. Comay, ``The National Park Service's Maintenance 
Backlog: Frequently Asked Questions,'' Congressional Research Service, 
August 23, 2017, available at: https://fas.org/sgp/crs/misc/R44924.pdf.
---------------------------------------------------------------------------
    A Center for American Progress review of the Park Service's 
``deferred maintenance'' database also found $389 million in projects 
on concessionaire-operated facilities in the parks. These are privately 
run, for-profit enterprises; these companies, not U.S. taxpayers, 
should be paying for the upkeep of the facilities they are using.
    Further, our review of the Park Service's database found that only 
$3.5 billion--less than 30 percent--of the National Park Service's 
$11.9 billion maintenance backlog is labeled as ``critical systems 
deferred maintenance.'' Of that, only $1.3 billion--or about 10 percent 
of the total backlog--is serious enough for the agency to consider it a 
priority for necessary maintenance.\10\ To be sure, $1.3 billion is a 
large number, but this understanding of the truly high priority 
maintenance needs should inform Congress' budgetary decisions.
---------------------------------------------------------------------------
    \10\ Nicole Gentile and Matt Lee-Ashley, ``Yosemite for Sale,'' 
Center for American Progress, February 10, 2017, available at: https://
www.americanprogress.org/issues/green/reports/2017/02/10/414907/
yosemite-for-sale/.
---------------------------------------------------------------------------
    Second, the maintenance needs in our national parks should be 
assessed in the context of the maintenance needs on other public lands 
as well--in our national forests, wildlife refuges, and national 
conservation lands. Yes, national parks are remarkable places. But so 
many of our children's first experiences in the outdoors are at a 
campground in a national forest, visiting a national wildlife refuge on 
a school trip, or going fishing in one of the BLM's national 
conservation areas.
    The maintenance challenges at these other agencies are just as 
pressing as in the national parks. In 2016, the U.S. Forest Service 
estimated that it had $5.49 billion in maintenance needs, while the 
U.S. Fish and Wildlife Service estimated $1.4 billion and the BLM $810 
million.\11\
---------------------------------------------------------------------------
    \11\ Carol Hardy Vincent, ``Deferred Maintenance of Federal Land 
Management Agencies: FY 2007-FY 2016 Estimates and Issues,'' 
Congressional Research Service, April 25, 2017, available at: https://
fas.org/sgp/crs/misc/R43997.pdf.

    These maintenance needs are significant, but they not 
insurmountable. We need a long-term investment in our parks and public 
---------------------------------------------------------------------------
lands that:

    <bullet> Focuses on the highest priority maintenance needs in our 
            national parks and at other land management agencies.

    <bullet> Requires for-profit entities operating on national parks 
            and public lands to pay for the maintenance costs 
            associated with the facilities they are using. Taxpayers 
            should not be subsidizing corporate hotel chains in the 
            national parks, for example.

    <bullet> Provides stable and sustainable funding that can be 
            counted on year after year.

    <bullet> Improves the condition and stewardship of the resources 
            that the agencies are responsible for conserving.

    <bullet> Expands opportunities for all Americans to get outdoors, 
            including through the protection of new parks and open 
            spaces, and by working toward a more inclusive system of 
            parks and public lands.

   the administration's ``public lands infrastructure fund'' proposal
    In his Fiscal Year 2019 budget request of Congress, the President 
has asked Congress to establish what it has labeled a ``Public Lands 
Infrastructure Fund.'' The proposal would use Federal energy and 
mineral revenues that are above current budget projections to help fund 
maintenance projects in the national parks.\12\
---------------------------------------------------------------------------
    \12\ U.S. Department of the Interior, ``FY 2019 Interior Budget in 
Brief,'' February, 2018, available at: https://edit.doi.gov/sites/
doi.gov/files/uploads/fy2019_bib_dh025.pdf.
---------------------------------------------------------------------------
    In testimony to Congress last week, Secretary of the Interior Ryan 
Zinke said the proposal would generate up to $18 billion in funding for 
national parks and public lands. He stated that this would be the 
``largest investment in public lands infrastructure in our Nation's 
history.'' \13\
---------------------------------------------------------------------------
    \13\ Natasha Geiling, ``Here's What Ryan Zinke's public lands 
infrastructure investment actually means,'' Climate Progress, March 14, 
2018, available at: https://thinkprogress.org/zinke-public-lands-
infrastructure-explainer-16d7502102fe/.
---------------------------------------------------------------------------
    This claim is not factually accurate. President Franklin D. 
Roosevelt's Civilian Conservation Corps employed more than 3 million 
Americans in restoring, protecting, and creating infrastructure for our 
parks, forests, and public lands. Adjusted for inflation to 2018 
dollars, Congress invested $58 billion in America's public lands 
through the CCC, far more than is promised through the Administration's 
proposal.\14\
---------------------------------------------------------------------------
    \14\ Nicole Gentile and Jenny Rowland, ``Zinke's Cynical Plan to 
Make America's Parks Dependent on Mining and Drilling,'' Center for 
American Progress, March 16, 2018, available at: https://
www.americanprogress.org / issues / green / news / 2018 / 03 / 16 / 
448029 / zinkes-cynical-plan-make-americas-national-parks-dependent-
mining-drilling/.
---------------------------------------------------------------------------
    The problems with the Public Lands Infrastructure Fund, however, 
are not merely rhetorical. The Administration put forward its proposal 
for maintenance projects in the parks while simultaneously proposing to 
slash the National Park Service's overall budget by 7 percent and the 
Interior Department as a whole by 16 percent. This would result in the 
elimination of up to 2,000 park rangers.\15\ America's most effective 
conservation program, the Land and Water Conservation Fund, would be 
effectively eliminated. And the Administration is proposing to increase 
visitor fees at national parks, which would price many families out.
---------------------------------------------------------------------------
    \15\ U.S. Department of the Interior, ``Budget Justifications and 
Performance Information, Fiscal Year 2019: National Park Service,'' 
Exhibit E, February, 2018, available at: https://www.doi.gov/sites/
doi.gov/files/uploads/fy2019_nps_budget_justification.pdf.
---------------------------------------------------------------------------
    Furthermore, the financing mechanism for the Administration's 
``Public Lands Infrastructure Fund'' is highly speculative and, 
unfortunately, in conflict with the conservation mission of the 
National Park Service. The problem, simply put is this: in order for 
park bathrooms to get fixed, the Federal Government would have to start 
collecting a lot more money from oil, gas, and mining companies.

    The three scenarios under which the Federal Government could 
theoretically generate $18 billion in additional revenues over the next 
10 years from energy and mineral extraction on taxpayer-owned lands and 
waters are:

  A.  If oil, coal, or natural gas prices rise dramatically;

  B.  If Federal agencies increase royalty rates, rents, and bonus bids 
            it collects from energy extraction--or requires hardrock 
            mining companies to pay more than zero dollars for mining 
            taxpayer-owned resources; or

  C.  If the Administration sells off mining and drilling rights in 
            areas of America's public lands and oceans that are 
            currently considered too special to sacrifice, such as the 
            Arctic National Wildlife Refuge, the Atlantic, Pacific, and 
            Arctic coasts, on the doorstep of national monuments and 
            national parks, and in national forest watersheds that 
            supply drinking water to nearby communities.

    Each of these scenarios is either unlikely or undesirable. Funding 
for America's national parks should not be dependent on the price of 
oil and the decisions that the Organization of the Petroleum Exporting 
Countries (OPEC) makes. This Administration is also signaling its 
desire to reduce--not increase--royalty rates for energy extraction on 
Federal lands and waters. And we are not a country that should have to 
drill a national wildlife refuge or mine a national monument to be able 
to fix some potholes in national park roads.
    For these reasons, the Administration's promise that ``up to $18 
billion'' would flow to the Public Lands Infrastructure Fund is 
unrealistic and in conflict with America's conservation values.
                        h.r. 5210 and h.r. 2584
    The National Park Restoration Act (H.R. 5210), in its current form, 
mirrors the Trump administration's ``Public Lands Infrastructure Fund'' 
and is therefore burdened by many of the same policy shortcomings.
    The bill narrowly focuses on maintenance projects in the national 
parks and does not make needed investments in our national wildlife 
refuges, national forests, national monuments and other public lands. 
It would invest solely in the built infrastructure in the parks--roads, 
bathrooms, concessionaire facilities--but does not help the Park 
Service address the problems of inholdings, encroaching development, or 
threats to the natural resources it is protecting. In fact, it 
explicitly prohibits the National Park Service from using the funds to 
purchase land that might serve as a new trailhead or to save a former 
Civil War battlefield from being turned into a parking lot for a retail 
store.
    Perhaps the biggest shortcoming of the current version of H.R. 5210 
is that there is no guarantee that any money will flow to the fund. For 
the national parks to receive any benefit from this proposal, the 
Federal Government would have to collect more than $7.8 billion in 
energy revenues in 2018--a threshold that rises steadily to $9.4 
billion by 2027. This is a speculative and uncertain approach to 
infrastructure investment. The condition of our national parks should 
under no circumstance be dependent on the price of oil, on whether or 
not we drill near the coasts of Florida or South Carolina, or whether 
we permit a new coal mine near a national monument.
    The National Park Service Legacy Act of 2017, H.R. 2584, presents a 
more balanced and realistic approach. It would dedicate a portion of 
existing Federal energy revenues to national park maintenance projects, 
thus providing clear, certain, and stable investments through 2047. 
Importantly, it also clarifies that the bill would not affect other 
existing commitments of energy revenues, including the share of energy 
revenues that goes to states, the Land and Water Conservation Fund, and 
the Historic Preservation Fund. Under the bill, between 2018 and 2026, 
$1.35 billion would go to national park maintenance needs, which--along 
with sensible annual appropriations--would fund the agency's highest 
priority projects.
    Paired with significant investments in conservation through the 
Land and Water Conservation Fund, contributions from the Department of 
Transportation's Federal highway programs, appropriate franchise fees 
from private concessioners, and sustained and balanced investments in 
operations and maintenance of the U.S. Forest Service, BLM, and 
National Park Service, H.R. 2584 could help us lay a strong foundation 
for conservation and public lands stewardship for the next 50 years.
                               conclusion
    Congress was truly wise when it endowed the National Park Service 
with the twin missions of preserving America's treasures and providing 
for their enjoyment. Over the past 102 years, the National Park Service 
has proven that these two missions are co-dependent. To successfully 
preserve Yellowstone National Park, the Cesar Chavez National Monument, 
or the Underground Railroad Network to Freedom sites, the American 
public must be able to see, know, and learn about these places. And for 
American families to have a rewarding experience when they visit, our 
public lands must be healthy, our wildlife must be abundant, and our 
parks should reflect the rich diversity of our history, geography, 
cultures, and peoples.
    To be sure, we have periodically heard arguments for prioritizing 
public use over conservation in the national parks. These arguments, 
however, present a false choice. The maintenance needs in the national 
parks are no reason to eliminate or divert money from the Land and 
Water Conservation Fund, to stop conserving at-risk places, to slow the 
restoration of wildlife habitat, to price American families out of 
parks, or to undercut the rangers and professionals who care for these 
places. For more than a century--through two world wars, the Great 
Depression, and plenty of moments of national trial--our country has 
steadily made America's best idea even better. We have done so by 
remaining faithful to Congress' original vision that our national parks 
are to be enjoyed and conserved.

    Thank you.

                                 ______
                                 

    Mr. McClintock. Our final witness is Ms. Callie Hoyt. She 
is Manager for Federal Affairs for the Motorcycle Industry 
Council. She has traveled here the farthest to be with us 
today. She has come all the way from Arlington, Virginia.
    [Laughter.]
    Mr. McClintock. Welcome.

STATEMENT OF CALLIE HOYT, MANAGER, FEDERAL AFFAIRS, MOTORCYCLE 
             INDUSTRY COUNCIL, ARLINGTON, VIRGINIA

    Ms. Hoyt. Thank you. Chairman McClintock, Ranking Member 
Hanabusa, and members of the Subcommittee, I appreciate the 
opportunity to appear before you today to share the views of 
the Motorcycle Industry Council and views of other outdoor 
recreation interests, on potential solutions to reduce the 
deferred maintenance and repair backlog of the Department of 
the Interior, as well as that of the U.S. Forest Service.
    The Motorcycle Industry Council is a not-for-profit, 
national trade association representing over 600 manufacturers, 
distributors, dealers, and retailers of motorcycles, scooters, 
motorcycle and ATV parts, accessories and related goods and 
services, and members of allied trades. Our member companies 
and their customers, over 50 million off-highway motorcycle, 
side-by-side, and all-terrain vehicle riders, many of whom 
recreate on Federal lands, are very concerned over the 
Department of the Interior's and the U.S. Forest Service's 
growing deferred maintenance backlogs.
    Roads, trails, campgrounds, water systems and more 
recreational infrastructure suffer from this accumulated 
problem that is negatively impacting visitor access, enjoyment, 
and safety on public lands for the rapidly growing community of 
outdoor recreation enthusiasts.
    In 2017, 330 million people visited the 417 National Park 
Service sites across the country. The National Park Service 
completed over 650 million in maintenance and repair work in 
Fiscal Year 2017, but aging facilities, high visitation, and 
resource constraints have kept the maintenance backlog between 
$11 billion and $12 billion since 2010.
    The National Park Legacy Restoration Fund and the National 
Park Restoration Act are significant efforts to overcome the 
National Park Service's $11.6 billion maintenance backlog, an 
amount that is nearly four times the Agency's annual 
appropriations. Directing Federal receipts associated with the 
sale of publicly-owned energy resources toward addressing the 
maintenance backlog creates an opportunity to make a strategic 
contribution to our national parks early in the second century 
of the National Park Service.
    Establishing a sustainable source of funding for rebuilding 
recreational infrastructure is an investment, not an expense. A 
recent report from the Department of Commerce's Bureau of 
Economic Analysis calculated the outdoor recreation industry's 
annual gross output to be $673 billion, surpassing other 
sectors such as agriculture, petroleum and coal, and computer 
and electronic products. The BEA report also determined that 
outdoor recreation makes up 2 percent of the U.S. GDP, and the 
outdoor recreation industry's GDP has increased an average of 
4.4 percent since 2012, significantly greater than the 3.6 
percent average increase in the overall U.S. GDP.
    The outdoor recreation economy is among our Nation's 
largest economic sectors, and public lands are the backbone of 
our industry. These measures you are considering today would be 
the largest investment the Nation has ever made in its national 
park system.
    National parks and other public lands and waters account 
for $45 billion in economic output and 396,000 jobs, 
nationwide. These public areas provide significant economic 
benefits, particularly for nearby rural communities. Ensuring 
maintenance of roads and trails is critical in many rural areas 
of the county that depend on those routes to provide access to 
important energy structures or infrastructure, connectivity for 
residents, and tourism.
    While the Park Service holds the largest share of the 
Interior Department's overall $16 billion maintenance backlog, 
it is important to shine a light on other land management 
agencies that are struggling to address mounting deferred 
maintenance backlogs from a lack of adequate resources. The 
Bureau of Land Management's total backlog is estimated at $810 
million, which has increased 65 percent over the past decade.
    It is important to note that the BLM is one of the few 
Federal agencies that brings in more revenue than it spends 
through timber harvesting, livestock grazing, recreation, and 
energy development. The U.S. Forest Service's $5.49 billion 
backlog interferes with the Agency's ability to provide access 
and safe passage on its more than 158,000 miles of trails. Due 
to growing visitor use and limited funding compounded by the 
rising costs of wildfire suppression and the associated 
decrease of nearly 40 percent in non-fire personnel, the Forest 
Service lacks capacity and resources for achieving a 
sustainable trail system.
    The Forest Service currently manages 192.9 million acres, 
and the BLM manages 248.3 million acres of public land and 
administers 700 million acres of Federal subsurface mineral 
estate throughout the Nation. Maintenance of Forest Service and 
BLM roads and trails is imperative because these two agencies 
maintain multiple-use missions that support a variety of 
activities and programs. Through this multiple use management 
model, the outdoor recreation industry thrives on Forest 
Service and BLM lands.
    To emphasize that point, more than 99 percent of BLM-
administered lands are available for recreation use with no 
fees. When one Forest Service or BLM road or trail goes out of 
service, it is indefinitely placed on the backlog and can 
negatively impact a number of outdoor recreational pursuits, 
energy development, livestock grazing, and timber harvesting.
    The MIC and our outdoor recreational business community 
partners urge the Committee and Administration to broaden this 
funding measure to include maintenance of roads and trails 
managed by the Forest Service and BLM in order to establish a 
comprehensive solution to our public lands management agencies' 
deferred maintenance backlogs.
    Thank you. That concludes my statement.

    [The prepared statement of Ms. Hoyt follows:]
Prepared Statement of Callie Hoyt, Manager, Federal Affairs, Motorcycle 
              Industry Council on H.R. 5210 and H.R. 2584
    Chairman McClintock, Ranking Member Hanabusa, and members of the 
Subcommittee, I appreciate the opportunity to appear before you today 
to share the views of the Motorcycle Industry Council, and views of 
other outdoor recreation interests, on potential solutions to reduce 
the deferred maintenance and repair backlog of the Department of the 
Interior, as well as that of the U.S. Forest Service.
    The Motorcycle Industry Council is a not-for-profit, national trade 
association representing over 600 manufacturers, distributors, dealers, 
and retailers of motorcycles, scooters, motorcycle/ATV parts, 
accessories, and related goods and services, and members of allied 
trades.
    Our member companies and their customers--over 50 million off-
highway motorcycle, side-by-side, and all-terrain vehicle riders, many 
of whom recreate on Federal lands--are very concerned over the 
Department of the Interior's and the U.S. Forest Service's growing 
deferred maintenance and repair backlogs. Roads, trails, campgrounds, 
water systems and more recreational infrastructure suffer from this 
accumulated problem that is negatively impacting visitor access, 
enjoyment, and safety on public lands for the rapidly growing community 
of outdoor recreation enthusiasts. In 2017, 330 million people visited 
the 417 NPS sites across the country. The NPS completed over $650 
million in maintenance and repair work in FY 2017, but aging 
facilities, high visitation, and resource constraints have kept the 
maintenance backlog between $11 billion and $12 billion since 2010.
    The National Park Legacy Restoration Fund (H.R. 2584) and the 
National Park Restoration Act (H.R. 5210) are significant efforts to 
overcome the National Park Service's $11.6 billion maintenance backlog, 
an amount that is nearly four times the agency's annual appropriations. 
Directing Federal receipts associated with the sale of publicly-owned 
energy resources toward addressing the maintenance backlog creates an 
opportunity to make a strategic contribution to our national parks 
early in the second century of the National Park Service.
    Establishing a sustainable source of funding for rebuilding 
recreational infrastructure is an investment, not an expense. A recent 
report from the Department of Commerce's Bureau of Economic Analysis 
(BEA) calculated the outdoor recreation industry's annual gross output 
to be $673 billion, surpassing other sectors such as agriculture, 
petroleum and coal, and computer and electronic products. The BEA 
report also determined that outdoor recreation makes up 2.0 percent of 
the U.S. GDP, and the outdoor recreation industry's GDP has increased 
an average of 4.4 percent since 2012, significantly greater than the 
3.6 percent average increase in the overall U.S. GDP.
    The outdoor recreation economy is among our Nation's largest 
economic sectors, and public lands are the backbone of our industry. 
These measures you are considering today would be the largest 
investment the Nation has ever made in its National Park System. 
National parks and other public lands and waters account for $45 
billion in economic output and about 396,000 jobs nationwide. These 
public areas provide significant economic benefits, particularly for 
nearby rural communities. Ensuring maintenance of roads and trails is 
critical in many rural areas of the county that depend on those routes 
to provide access to important energy structures or infrastructure, 
connectivity for residents, and tourism.
    While the Park Service holds the largest share of the Interior 
Department's overall $16 billion maintenance backlog, it's important to 
shine a light on other land management agencies that are struggling to 
address mounting deferred maintenance backlogs from a lack of adequate 
resources. The Bureau of Land Management's (BLM) total backlog is 
estimated at $810 million, which has increased 65 percent over the past 
decade. It's important to note that the BLM is one of the few Federal 
agencies that brings in more revenue than it spends through timber 
harvesting, livestock grazing, recreation, and energy development. The 
U.S. Forest Service's $5.49 billion backlog interferes with the 
agency's ability to provide access and safe passage on its more than 
158,000 miles of trails. Due to growing visitor use and limited funding 
compounded by the rising costs of wildfire suppression and the 
associated decrease of nearly 40 percent in non-fire personnel, the 
Forest Service lacks capacity and resources for achieving a sustainable 
trail system.
    The Forest Service currently manages 192.9 million acres, and the 
BLM manages 248.3 million acres of public land and administers about 
700 million acres of Federal subsurface mineral estate throughout the 
Nation. Maintenance of Forest Service and BLM roads and trails is 
imperative because these two agencies maintain multiple-use missions 
that support a variety of activities and programs. Through this 
multiple use management model, the outdoor recreation industry thrives 
on Forest Service and BLM lands. To emphasize that point, more than 99 
percent of BLM-administered lands are available for recreational use 
with no fees. When one Forest Service or BLM road or trail goes out of 
service, it is indefinitely placed on the backlog and can negatively 
impact a number of outdoor recreational pursuits, energy development, 
livestock grazing, and timber harvesting.
    The longer this systemic problem continues, the more challenging it 
will become for the Departments of the Interior and Agriculture to 
manage public lands in a way that maximizes opportunities for 
commercial, recreational, and conservation activities. Without 
including the Forest Service and BLM in the solution, the agencies will 
continue to be limited in their ability to carry out their multiple-use 
approach that enables prioritization of energy independence, shared 
conservation stewardship, putting Americans back to work, and serving 
the American public.
    The MIC and our outdoor recreational business community partners 
urge the Committee and Administration to broaden this funding measure 
to include maintenance of roads and trails managed by the Forest 
Service and BLM in order to establish a comprehensive solution to our 
public lands management agencies' deferred maintenance backlogs.
    I thank the Subcommittee for allowing me to testify on this all too 
important issue. We look forward to working with Congress and the 
Administration to support maintenance of roads and trails on NPS, 
Forest Service, and BLM lands. Mr. Chairman, this concludes my 
statement. I would be pleased to answer any questions you or other 
members of the Subcommittee may have.

                                 ______
                                 

    Mr. McClintock. Great, thank you very much for your 
testimony. We will now proceed to Committee questions, and I 
will begin.
    Mr. Smith, I asked a few weeks ago if you could give us an 
estimate of how much of the deferred maintenance backlog is 
actual maintenance, like bricks and mortar stuff, and how much 
of it is meeting various environmental studies and 
requirements. We have not heard back yet. How are you coming on 
that?
    Mr. Smith. Mr. Chairman, I do have numbers for you that 
basically total, for this fiscal year, $786 million. I think I 
have that number right. I know we were working on those 
numbers, and I think----
    Mr. McClintock. No, no. The question I have is, out of the 
total $11.6 billion in deferred maintenance, how much is 
actually maintenance and how much of it is meeting various 
environmental requirements conducting environmental studies, 
and the like?
    Mr. Smith. Mr. Chairman, I don't have that number for you 
yet. I know it has been worked on. But the preponderance of it 
is in the actual construction and the maintenance. The numbers 
for either design or NEPA or those type of things are 
minuscule, compared to the actual bricks-and-mortar projects we 
are talking about.
    Mr. McClintock. OK.
    Mr. Smith. And I apologize I don't have that number for you 
today.
    Mr. McClintock. That is good to know, but I would like to 
get the exact----
    Mr. Smith. I will get you that number very, very shortly.
    Mr. McClintock. I appreciate that, thank you.
    Second, with the fund capped at $18 billion, what 
assurances do we have that that is actually going to be used 
for deferred maintenance? All funds are fungible. What is to 
prevent these funds from simply relieving other expenditures, 
such as salaries, bonuses, that sort of thing?
    Mr. Smith. The intent of the bill is to deal with deferred 
maintenance. There will certainly be a report to Congress every 
year on what we have spent these funds for.
    Mr. McClintock. Is there any requirement that they be used 
solely for deferred maintenance, and that other funds that had 
previously been budgeted for deferred maintenance aren't simply 
used for other purposes?
    Mr. Smith. No, sir. All of the accounts that come either 
from appropriated funds or from this funding source will be for 
deferred maintenance. None of those will be used for personnel 
costs or that type of----
    Mr. McClintock. No, I think you are missing the point. My 
concern is funds that are currently budgeted for deferred 
maintenance could be used elsewhere, then, if there is not a 
maintenance of effort requirement in the law.
    Mr. Smith. Well, yes, I hear what you are saying, 
Congressman. Again, the way that Congress appropriates money, 
we do know what is dedicated to deferred maintenance, and that 
is blocked off and used for that. The intent of this bill----
    Mr. McClintock. But there is no maintenance of effort 
required for the bureaucracies, with respect to their existing 
deferred maintenance budget?
    Mr. Smith. There is nothing in the bill that guarantees 
that. You are correct, Congressman.
    Mr. McClintock. When John Jervis was here, goodness, 4 or 5 
years ago now, I asked him, ``If you had your choice, where 
would you prioritize funding, land acquisition or deferred 
maintenance?'' He said deferred maintenance. Is that the view 
of the current Administration?
    Mr. Smith. It certainly is, Mr. Chairman. And when I 
testified before Congress in the 1980s it was the position then 
that we needed to deal with maintenance and not land 
acquisition.
    Mr. McClintock. OK.
    Mr. Smith. We needed to take care of what we have, rather 
than acquiring more land.
    Mr. McClintock. Ms. Argust, we just heard from the Center 
for American Progress that the deferred maintenance backlog is 
grossly overstated. Do you believe that the deferred 
maintenance numbers have been inflated?
    Mr. Smith. I do not, sir.
    Mr. McClintock. For Ms. Argust.
    Ms. Argust. Let's be clear. The deferred maintenance 
number, $11.6 billion, the Park Service assesses its assets 
each year as a requirement under law. That number that they 
come up with is from people going in the field and assessing 
what the conditions of their assets are. I do not feel it is 
overstated.
    I think the numbers that we heard from CAP are misleading 
when they are talking about $1.9 billion in critical systems. 
As I mentioned in my testimony, of the $11.6 billion, $8.8 
billion is attributed to high and highest-priority assets.
    Mr. McClintock. OK. Finally, it said the concessionaires 
ought to be paying for the venues the concessionaires use. 
Aren't those venues owned by the National Park Service and 
remain the property of the National Park Service?
    Ms. Argust. They do. The Park Service----
    Mr. McClintock. Concessionaires are, in effect, renting 
that space.
    Ms. Argust. There may be leases in some cases, but the Park 
Service still has to account for that deferred maintenance----
    Mr. McClintock. Right, right.
    Ms. Argust [continuing]. In their assessment.
    Mr. McClintock. Thank you.
    Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chairman.
    Mr. Lee-Ashley, since your report was just discussed, let's 
follow up with that. Do you disagree with the $11.6 billion 
figure? You said in your testimony and gave in your written 
testimony, as well, an analysis of where you think the 
liability should be. However, do you disagree with the $11.6 
billion as the deferred maintenance amount?
    Mr. Lee-Ashley. The Park Service is responding to the 
request of Congress to document all of its deferred maintenance 
needs. So, the key is to get into that and understand what are 
the highest priorities. We obtained that full list through the 
Freedom of Information Act and scrutinized it and tried to 
understand how they defined their own priorities, and that is 
how we came to understand that their $386 million of projects 
that should be paid for by hotels and restaurants and private 
operators in the parks, and also $1.3 billion that the agency 
itself views as the highest priority.
    So, in a time when you are making budget decisions and 
trade-offs, it is helpful to focus in on the most pressing 
priorities here.
    Ms. Hanabusa. When you did the analysis--I think what you 
say is that $1.3 billion, or 10 percent of the total backlog, 
is serious enough for the Agency to consider it a priority for 
necessary maintenance. So, are you saying, of the $11.6 
billion, only $1.3 billion is really what you would consider 
necessary maintenance?
    Mr. Lee-Ashley. This is in the words of the Agency. That is 
the highest standard for them, the most critical needs. That is 
not to say the Park Service doesn't want more money. It is a 
wish list, in some ways, of priorities, $11.6 billion. But when 
Congress is scrutinizing that list, it is important to identify 
which areas deserve the most attention and which projects, in 
the Agency's own view, are most critical.
    Ms. Hanabusa. No, I understand, and I agree with you that 
we have to understand where the $11.6 billion comes from. I 
just want to know whether you agree that about $1.3 billion is 
really what you would consider to be critical.
    Mr. Lee-Ashley. It is the highest priority. I also want to 
emphasize again that it is important to address the other 
agencies' deferred maintenance needs, and continue to invest in 
conservation, so that when we are thinking about this, having a 
comprehensive view of how to invest in parks and public lands 
is absolutely essential.
    Ms. Hanabusa. Let me also understand when you said that 
about $3.5 billion, less than 30 percent of the $11.9 million 
backlog, is labeled this critical deferred, but you feel that 
it is only about $1.3 billion. So, what about the rest of that 
money?
    Mr. Lee-Ashley. The $3.5 billion, in the Agency's view, are 
high-priority projects, but are not necessarily in the places 
that are most visited. So, that is a slightly lower tier of 
priority for them. Still important projects to fund, important 
investments in parks and public lands, but again, as we 
understand that tier system that the Agency uses, it is 
important to distinguish among them.
    Ms. Hanabusa. What do you think is the total deferred 
maintenance that we, as Congress, should be concerned about? 
What is that figure? Is it the $1.3 billion?
    Mr. Lee-Ashley. I think that is a good place to start. 
Obviously, we would support more investments in Parks, the Fish 
and Wildlife Service, the Bureau of Land Management, and the 
Forest Service to address the deferred maintenance needs across 
the board.
    What the sweet spot is is hard to say, exactly. I do think 
you absolutely need to cover that $1.3 billion. You also need 
to understand the fact that the agencies themselves still have 
important conservation missions to fulfill. So, when there is a 
big box store that is being proposed next to a national 
battlefield, or a Civil War battlefield, the agencies need to 
be able to address that threat.
    It is about pursuing both the management needs of these 
agencies, while continuing to fulfill their conservation 
missions.
    Ms. Hanabusa. Am I hearing you correctly, that what you are 
really saying is that we may have these needs to address, but 
if it is in any way going to jeopardize--for example, if an 
additional coal mine, I think was one of the examples you gave, 
was going to be a result of this, that you would, of course, 
say that it shouldn't result with any additional mineral 
rights. And that is what, I think, you are saying right now. Am 
I correct?
    Mr. Lee-Ashley. I was referring to H.R. 5210, where the 
funding mechanism for that bill is to procure more oil and gas 
and coal revenues. To generate more revenues from energy 
extraction, either oil prices need to go up, you need to raise 
royalties, or you need to allow more energy development 
somewhere. And under this Administration's proposal of drilling 
off of every coast and pursuing----
    Ms. Hanabusa. Except Florida.
    Mr. Lee-Ashley. Except Florida, perhaps. There are risks to 
that, in each of those scenarios, and highly controversial, 
obviously, drilling the Arctic Refuge, or drilling near a 
national monument, et cetera.
    Ms. Hanabusa. Thank you.
    Mr. Chair, I will yield back.
    Mr. McClintock. Thank you.
    Mr. Tipton.
    Mr. Tipton. Thank you, Mr. Chairman, and thank the panel 
for taking the time to be here.
    I would respectfully disagree. I think that final 
assessment, as I read through that bill, it is actually also 
calling for renewable resources, not just oil and gas. And I 
think that is an important point.
    Last week, we had Secretary Zinke before our Full Committee 
to examine the Fiscal Year 2019 budget for the Department of 
the Interior. Much of the discussion was around addressing 
crumbling infrastructure on Federal lands, and dealing with the 
massive deferred maintenance backlog.
    Secretary Zinke did raise a point that I think is worthy of 
consideration. In 2008, the Department of the Interior was the 
second-largest responsible energy producer in the United 
States. However, the Department generated $18 billion in 
offshore revenues in 2008. That number is now down to $2 
billion. Resources could obviously be being used to help 
address that crumbling infrastructure that we are discussing.
    So, when we do start to talk about setting up funds to pay 
down that maintenance backlog in the Parks, or the BLM, or the 
Forest Service, I do believe it is important that we have an 
understanding of where the money does come from.
    I have called for responsible, all-of-the-above energy 
policy on our Federal lands that includes, and we enumerate it 
in the bill, wind, solar, geothermal, hydroelectric, natural 
gas, oil, oil shale, coal, and have a bill, the Planning for 
American Energy Future Act, that would require the Department 
of Energy to actually work with the Department of Agriculture 
and the Department of the Interior to evaluate America's future 
energy needs, and develop that all-of-the-above strategy to be 
able to meet those needs.
    Mr. Smith and Ms. Argust, I would like to visit maybe with 
both of you about how best renewable energy generated on 
Federal lands can support efforts to be able to address the 
National Park Service maintenance, as well as the backlogs 
within other agencies. Could each of you possibly discuss the 
impact renewable energy development on Federal lands can have 
in those efforts?
    Mr. Smith?
    Mr. Smith. Yes, if the Department every year, or when it 
presents its budget to Congress, there in that document there 
is always the 3-year estimate of what energy revenue was going 
to be, the actual for that year, and those can be looked at for 
as many back-years as you want to go to. In an assessment of 
that within the last week or 10 days the staff did, the average 
amount ends up to be about $9 billion. It is at a high, as you 
said, of $18 billion. The last administration took it to a low 
of $2 billion.
    But, basically, all those numbers, as far as estimates of 
revenue that we are talking about in this bill, and then actual 
amounts that come in from offshore or from all energy sources, 
those numbers are readily available for everyone to see. Again, 
that averages about $9 billion over the last 20 years.
    Mr. Tipton. Just for clarity, for my purposes here, we do 
have renewable development of energy on Federal lands. Do they 
pay a royalty, or is it simply the lease fee?
    Mr. Smith. Most of it is lease at this time.
    Mr. Tipton. Lease fee. So, in terms of traditional fuel 
sources, they do pay a royalty fee, but nothing in regards to 
renewables?
    Mr. Smith. I am sorry----
    Mr. Tipton. In terms of a royalty fee coming in off of 
energy development?
    Mr. Smith. Royalties are certainly collected on oil and 
gas. That is how the revenue is derived. But on the wind and 
solar, that currently is under leases.
    Mr. Tipton. That is just under, actually. Ms. Argust, do 
you have any comments on that?
    Ms. Argust. As far as with renewables, yes. I believe in 
some cases there are not royalties, so it would be production 
fees.
    I am not clear entirely on your question. I mean we are 
comfortable with the fact that renewables would be included in 
the Restoration Act. Certainly we would want to make sure that 
siting and sensitive lands are taken care of when we are 
talking about renewables.
    Mr. Tipton. OK, great. Do you believe that our current 
regulatory system is set up to be able to support renewable 
energy development on Federal lands? Either one of you?
    Mr. Smith. I certainly do, Congressman, yes.
    Mr. Tipton. Would you agree with that?
    Ms. Argust. I don't have enough information on that. I am 
not well versed on that. That is something we need to be 
exploring. But I don't have enough information on that topic.
    Mr. Tipton. Thank you. And I do appreciate the efforts of 
our two colleagues to be able to look at resources to actually 
help the crumbling infrastructure that we are seeing on a lot 
of our public lands, and trying to get a sustainable revenue 
system for that.
    So, thank you, and I yield back, Mr. Chairman.
    Mr. McClintock. Mr. Huffman.
    Mr. Huffman. Thanks, Mr. Chairman.
    Deputy Director Smith, could you tell us how much of the 
backlog do road issues across the system, such as Tioga Road in 
Yosemite National Park, represent, approximately?
    Mr. Smith. About 5,500 miles of road out of our 17,000 are 
in deferred maintenance. And the transportation, the road 
system, is about $5.9 of the $11.8 billion in backlog.
    Mr. Huffman. Significant.
    Mr. Smith. Significant. And that is bridges, culverts, 
everything associated with roads, not just the concrete or the 
asphalt.
    Mr. Huffman. It seems to me that we should fix 
transportation funding first, instead of incentivizing expanded 
drilling on public lands as a way to fund maintenance needs. I 
am wondering if you can explain why the Federal Lands Highway 
Fund is not supporting the reconstruction of these roads.
    Mr. Smith. Congressman, it certainly is. We do get money 
from the Federal Highway Trust Fund. It is certainly not 
keeping up with the demands for roads, but we do get a share in 
our appropriations from that transportation----
    Mr. Huffman. But we are falling further behind.
    Mr. Smith. Yes, we are, sir.
    Mr. Huffman. All right. Let's go to Ms. Argust. H.R. 2584 
leverages taxpayer investments with donations for NPS projects, 
which is a good idea, in my opinion. Groups like the Golden 
Gate Park Conservancy near my district are well suited to step 
into this role. And, to date, the Conservancy has provided over 
$500 million in support to Golden Gate National Park.
    Could you talk a little more about the support provided by 
these donations, and the importance of leveraging that taxpayer 
contribution?
    Ms. Argust. Sure. We are very supportive of that component 
in the Legacy Act, would love to see that provided in the 
Restoration Act, as well.
    Public-private partnerships are very important in 
addressing deferred maintenance. Unfortunately, when we are 
talking about $11 billion, public-private partnerships can only 
do so much. But we would certainly like to incentivize that, 
and the provision in the Legacy Act does that.
    The Golden Gate Conservancy is a great example. The 
Yosemite Conservancy, as well. The Yosemite Conservancy has put 
up matching dollars for a restoration project there in the 
Mariposa Grove, the friends group put up $20 million to restore 
a deferred maintenance issue there. So, we are very supportive 
of public-private partnerships.
    Mr. Huffman. All right, thank you.
    Mr. Lee-Ashley, the solution to the backlog that H.R. 5210 
offers is essentially to repair national parks inside their 
boundaries by expanding drilling just outside on public land. I 
happen to think we should not be tying the future of our parks 
to this Trump administration notion of energy dominance, 
whatever that is, and I think it really means fossil fuel 
energy dominance.
    Could you speak a little more about the downside of that 
linkage?
    Mr. Lee-Ashley. Sure. As we speak, there is an auction 
happening on BLM lands in Utah, a good example. One lease 
parcel is being offered right next door to Canyons of the 
Ancients National Monument. The leases that are being sold 
right now, about 3 out of 10 are being sold for the minimum 
bid, $2 an acre, so we are not getting a whole lot right now 
out of our oil and gas program at the Bureau of Land 
Management.
    Moreover, what this Administration is proposing offshore, 
to expand drilling off the Pacific Coast, off the Atlantic 
Coast, and the Arctic, is also highly speculative and very 
controversial. It is not guaranteed we will receive the kinds 
of revenues back from those initiatives that would be required 
to actually address some of these maintenance needs.
    Mr. Huffman. OK. Back to Deputy Director Smith, the 
estimates in the President's budget project $760 million would 
be credited in the National Park Restoration Fund in Fiscal 
Year 2019. Could you explain how this number was developed?
    Mr. Smith. Give me the number again, Congressman.
    Mr. Huffman. I have $760 million.
    Mr. Smith. Yes, that is the number for this year. And it is 
developed from our deferred maintenance statistics that we 
have.
    Mr. Huffman. What are the assumptions on the activities 
that would generate the revenue to credit that?
    Mr. Smith. That currently would be out of our congressional 
appropriations.
    Mr. Huffman. I may need to follow up with you on that. But 
I am out of time.
    So, Mr. Chair, I will yield back.
    Mr. McClintock. Great, thanks. Votes have been called, and 
there are about 12 minutes remaining on the clock, but there is 
only one vote, so Members can come and go as they wish.
    Chairman Bishop.
    Mr. Bishop. All right, I will stay. This is more important 
than the vote you have going on there.
    Mr. Smith, let me talk to you for just a second about it, 
because, let's face it, about a decade ago there was a Stimulus 
Act that put about $900 million back into the budget, and it 
basically did diddly squat, as far as the maintenance and 
backlog. So, there have to be some other issues. I mean, we 
have to do something differently if we are going to make some 
kind of a difference.
    And there are also costs that you guys are facing that are 
non-fiscal hurdles in the Park Service, like processes for 
procurement, contracting, hiring, compliance, planning. What 
are you already doing now, as a service, to try to address 
those costs that take away money that could be going into 
maintenance and backlog?
    Mr. Smith. In this Administration, the Secretary has issued 
a direct Secretarial Order for us to streamline the NEPA 
process, basically to keep that within a year. And that is for 
an EIS. He actually expects that an EA could be done much 
earlier than that, even allowing for the public comment phases. 
He also is asking for us to look very carefully to see if we 
can find categorical exclusions for some of our projects, so we 
don't have to go through the NEPA process.
    I know that some of the Section 106 work takes a little bit 
of time. But, Mr. Chairman, I really believe it is not process. 
It really is the fact that we don't have the money we have to 
do deferred maintenance. I think we can work through the 
process issues and get the money on the ground if we have it.
    Mr. Bishop. I appreciate that, I just don't want government 
to be able to nickel and dime you on money that you actually 
need to go through those other funds at the same time.
    Even if we were to dump a whole boatload of money on you 
right now, does the Park Service have to ramp up in order to 
actually spend it efficiently and effectively?
    Mr. Smith. Yes, sir. For instance, these bills supposedly 
would double the amount of our appropriations, so yes, in 
certain areas, in contracting and in design and planning, we 
would have to ramp up a little bit. But it would be a very 
reasonable process to do that. And, of course, we would not 
ever move toward doing that until we knew we had this funding 
coming in to the National Park Service.
    Mr. Bishop. That makes total sense to me.
    What we are talking about here is not a unique phenomenon. 
Yellowstone was the first national park that was established. 
It took 6 years before Congress ever funded it, so this is not 
something that is new or unique. And, as I said, we put a whole 
bunch of money in the Stimulus. That didn't help it. And 
expecting to find money within the budget year after year after 
year is also a pipe dream that just does not exist.
    We have to generate some kind of specific new revenue 
source, and I think that is what you are trying to do. I am 
happy to know that alternative energy is part of that process. 
Anything else you can get above that baseline would be part of 
the process of trying to help it.
    So far, we are talking about Park Service. Ms. Hoyt, if I 
can ask you just one simple question. If we were to do the same 
thing for parks, for fish and wildlife refuges, for forests, 
would that be helpful to the people you represent?
    Ms. Hoyt. Yes, absolutely. Thank you for the question. The 
Forest Service manages the largest trail system in the country, 
and well-cared-for trail systems are vital for connecting 
visitors and communities to their public lands.
    And, particularly for the Forest Service and the Bureau of 
Land Management, which are operated under a multi-use mission, 
when one forest trail goes out of commission, it can affect a 
number of different recreational uses that impact a number of 
people within the outdoor recreation community.
    Mr. Bishop. All right. Thank you. I am also pained in some 
way to hear people actually talking about, well, let's hope 
that the farm bill can raise some money, or let's hope that the 
roads bill can raise some money, T&I. If we don't do something 
like this and identify a specific revenue source, I get you are 
just going to have to do a whole lot of bake sales to try to 
come up with the revenue you need for maintenance and backlog. 
There has to be an identifiable source that comes there.
    And it is also frustrating to me to consider that sometimes 
LWCF money coming from royalties is good, this money coming 
from royalties would be bad. That just does not make sense at 
all. In fact, I wish LWCF could be used more for maintenance 
and backlog. Even though it could be, it is not, it has not, 
and unless we change things it won't be.
    Mr. Smith, how big of a buffer zone do the parks actually 
need around them to control things? I have heard of how bad it 
would be to do any kind of drilling or mining just outside the 
boundaries of a park, or heard of leases that were let in Utah 
where nobody actually applied for those leases anyway. Do you 
all need a huge buffer zone? And if it is, how many states do 
you need to buffer every park?
    Mr. Smith. Well, it certainly varies, case by case.
    Mr. Bishop. You have 4 seconds to do it.
    Mr. Smith. Many of our national parks in the West are 
buffered by Forest Service wilderness, Mr. Chairman. A lot of 
those boundaries are very protected.
    Mr. Bishop. Thank you. My time is up. I appreciate that. I 
appreciate all of you being here at the same time. Now I am 
going to go vote, too.
    Mr. McClintock. OK, thank you.
    Ms. Cheney.
    Ms. Cheney. Thank you, Mr. Chairman. Thank you to all of 
our witnesses for being here.
    I have a question, Mr. Smith. I am trying to sort through, 
and I understand that in Mr. Simpson's bill, there is language 
that protects allocations that are already made to the states.
    But I wonder if you could explain to me exactly how that 
will work. Once you get above the projected amount, if you are 
looking at 48 percent, hopefully, eventually, we will get back 
to the 50 percent, that is going back to the states, are we 
then talking about a smaller pie above the projected amounts? I 
am trying to understand how the percentage process will work, 
so that states are actually protected.
    Mr. Smith. We are talking about all of the funds that 
currently go--whether it be to Land and Water Conservation 
Fund, to GOMESA, to the Reclamation Fund--I understand there 
might be 23 or such that are already there. All of those 
allocations will be paid before you look at any money going 
into the National Park Service Restoration Fund. All of those 
commitments will be met before.
    And then, when you look at that baseline, whatever is above 
that, then the consideration would be for 50 percent of that to 
go into the Park Service Restoration Fund and the rest to the 
Treasury.
    Ms. Cheney. So, once you get above the baseline 
projection--and I have a question about how we got the baseline 
projection--but once you get above the baseline projection, 
then you have a whole pie above the baseline projection, and 
you are going to allocate the percentages to those other places 
and then take 50 percent of what is left?
    Mr. Smith. Yes. All of those other allocations come out 
before that baseline triggers anything coming to the National 
Park Service Restoration Fund. That is a commitment made in the 
bill very, very, very strongly, and in my testimony today very 
strongly.
    Ms. Cheney. Well, I appreciate that. We will look further 
into that. I think that is some concern.
    The other concern is how we got to these projected amounts. 
I understand that OMB has projected what the revenue will be, 
but I know there is certainly a lot of concern that we are 
going to get to a point where that projected amount is somewhat 
arbitrary into the future.
    We have done a tremendous amount of work, I think very good 
work, in this Administration in terms of stopping the war on 
fossil fuels, in terms of encouraging increased development, in 
terms of showing how responsible that development can be. And I 
would hate to see a situation where we were coming back now and 
imposing additional fees, for example. And I know the bills 
guarantee that won't happen, but I think that that is certainly 
a concern, that we are going to have additional fees imposed 
that will actually end up slowing the development that we have 
seen and that we know that we need.
    Mr. Smith. Congresswoman, I appreciate your remarks. 
Sitting where I sit and wearing the hat that I wear, I leave 
scoring to OMB and for you all, for CBO, to do that. I don't do 
it from where I sit.
    Ms. Cheney. Well, I appreciate that. I would just say I 
very much applaud the effort to come up with some innovative 
ways to deal with this crucial issue. I am concerned that these 
fall short in a couple of important ways that we have to study 
additionally before we proceed here.
    But it is a tough issue. I appreciate very much the work 
that you are all doing on it, and I yield back. Thank you.
    Mr. McClintock. Thank you. I am afraid we are going to have 
to take a brief recess until some of the Members come back. I 
assume there are Members that still want to ask questions. They 
should be on their way back, and we will reconvene in a few 
minutes, as soon as Mr. Tipton arrives.
    With that, I extend the Subcommittee's apologies, but it is 
just an occupational hazard of life around here. So, we will 
stand in brief recess.
    [Recess.]
    Mr. Tipton [presiding]. I would like to recognize Mr. 
Labrador for his questions.
    Mr. Labrador. Thank you, Mr. Chairman, and thank you for 
holding the hearing today.
    Over the past several years, we have repeatedly heard 
testimony about the need to address the maintenance backlog of 
the National Park Service. While I am not opposed to using 
revenue from energy production on Federal lands to help address 
the deferred maintenance backlog, we need to ensure that 
Congress is playing a role in this process.
    Mr. Smith, thank you for being here again, and thank you 
for being here to testify on this issue. Both of the bills we 
are discussing today are attempts to address the nearly $12 
billion deferred maintenance backlog of the NPS. As I am sure 
you are aware, most conservatives oppose creating new mandatory 
spending programs. We believe that Congress needs to be in 
control of the spending.
    This is especially true because, while we totally 
appreciate the work that Secretary Zinke is doing at Interior, 
we remember that not too long ago, just a year-and-a-half ago, 
we had a Secretary that was not as easy to work with. So, that 
is why it is so important to having Congress approve the 
funding each year to some of us.
    Can you tell me what safeguards the bill puts in place to 
ensure that the funding would actually go to addressing the 
backlog, and not to other priorities of future administrations?
    Mr. Smith. Congressman, as in the normal appropriations 
process, when money is put into those accounts, we certainly 
have to deal with the Antideficiency Act and put money where 
Congress has told us.
    In this bill, it is my full understanding that the way we 
would keep Congress informed is with an annual report that 
details very, very succinctly everything that we are spending 
these funds on if they come from this new park restoration 
account.
    Mr. Labrador. OK.
    Mr. Smith. And I am not aware in other legislation where 
there is some kind of a guarantee. But again, any department of 
government knows that Congress has an oversight and a fiduciary 
responsibility, and we are always very aware of that.
    Mr. Labrador. OK. Addressing the deferred maintenance 
backlog is going to cost a lot of money, money that should or 
could be going to pay off our national debt, for example. What 
steps is NPS taking to ensure that the money will actually get 
spent on the ground, and not get tied up in overhead, 
bureaucracy, or litigation?
    Mr. Smith. Well, I can speak for this current 
Administration and this current Secretary. He has been very 
explicit about where these funds will go, and that he does not 
want any bureaucracy to get in the way of where these funds 
would go.
    Mr. Labrador. In your experience, how much do costs 
compound on projects the longer they are deferred?
    Mr. Smith. There is an escalation of cost, just in the way 
inflation works on that, or in doing things in phases. Most of 
the time in contracting, if you can do an entire project you 
save money, rather than phasing it over a number of years.
    Mr. Labrador. Do you have an example of something costing 
more because you did not have the funding to fix it sooner?
    Mr. Smith. I won't try to think right now of one, but I 
certainly can provide many of those examples, if you would 
like, for the record, Congressman.
    Mr. Labrador. All right. That would be great.
    Ms. Argust, your organization has conducted in-depth 
research and analysis on the NPS maintenance log, and the 
Center for American Progress report claims that only 10 percent 
of the total backlog is serious enough to be a priority for 
necessary maintenance. Do you believe that the National Park 
Service has inflated their deferred maintenance estimates?
    Ms. Argust. I do not, $8.8 billion is highest and high-
priority assets. In other words, $5.6 billion is considered 
highest-priority assets that are critical to the mission of 
those park sites.
    Mr. Labrador. All right, thank you.
    I have no further questions, and I will yield to somebody 
who may have additional questions.
    Mr. Tipton. Thank you, Mr. Labrador.
    Mr. Gianforte, you are now recognized for your 5 minutes.
    Mr. Gianforte. Thank you, Mr. Chairman, and thank you to 
the panel for being here today.
    Deputy Director Smith, thank you for taking some time to be 
with us. As you know, Montana is home to some of the most 
recognizable national parks in our system. People come from all 
over the world to visit us. Yellowstone and Glacier National 
Park each have had over 3 million visitors this past year, 
which has a tremendous effect on our local communities, but 
also strains the infrastructure in and around the parks.
    The rising visitation has created a backlog, as you are 
well aware, of over $500 million in Yellowstone National Park 
alone. The problem extends to Little Big Horn Battlefield, 
which has a backlog of over $5 million, and is in desperate 
need of a visitor center there.
    I understand that Congress will receive reports on the 
projects that are funded. You have told that to us multiple 
times here, but how will you prioritize which projects will 
move forward first?
    Mr. Smith. That is the whole reason for having the process 
we are talking about today of where the numbers have come from, 
the total $11.6 billion.
    The priority system, which has been talked about several 
different times today, when we look at the highest priority, 
they are the ones that we are going to put into play first. The 
high priorities are also necessary and need to be funded, but 
we have to say what are we going to do first out of all the 
choices that we have. And in that whole scale, only the lowest 
projects are the ones that maybe there is some flexibility of 
do we not repair, do we actually remove, and that type of 
thing.
    But all of those priorities, high, highest high, and 
medium, are all projects that need to be done. It is just a 
matter of how I prioritize with the money that we have. If 
there is more money allocated from either the new fund, from 
this legislation, or if it is money appropriated by Congress, 
we have to prioritize what we are going to do. And a lot of 
those now, Congressman, are health and safety needs. They are 
water systems and dams and that type of thing that we have to 
repair because of health and safety needs.
    Mr. Gianforte. OK. With almost a billion dollars in delayed 
maintenance in Montana alone between our two parks and other 
battlefields, have you identified specific projects in our 
region, if this legislation passes? And how quickly can you 
start work?
    Mr. Smith. Well, they certainly have been identified. They 
are in the deferred maintenance system. And again, there will 
be projects that will be started this year. I can't speak 
directly to those in Montana, but I certainly can get you a 
list on that, and let you know from that region which ones are 
in the queue for this next year.
    Mr. Gianforte. OK. Well, we have been facing increasing 
visitor levels, and that is a real priority. So, as you 
identify projects, I would encourage you to use funds on 
infrastructure that would increase access, in particular, and 
safety in these parks. And by strengthening our roads, bridges, 
and visitors centers, we can continue to welcome more and more 
people to these parks without wearing them out in the process.
    I want to shift gears, but I also have a question for you, 
Mr. Smith, related to the funding mechanism. I am curious if 
you have numbers on the estimated percentage of revenue if this 
legislation were to pass. What percentage of revenue would come 
from onshore and offshore energy development versus the 
percentage derived from alternative renewable sources? Have you 
looked at that? I am curious about the split.
    Mr. Smith. I don't have an exact figure on that. But, 
obviously, the onshore and offshore would be much more than the 
renewables. But the renewables are now growing. Wind and solar 
energy are growing, but the preponderance of that would still 
be on onshore and offshore revenue.
    Mr. Gianforte. OK. And as we discussed earlier, it sounds 
like the revenues from renewables are from leases, as opposed 
to royalties. Is that correct?
    Mr. Smith. That is correct at this time. Yes, Congressman.
    Mr. Gianforte. And the $2 billion number that you gave us 
earlier for total revenues last year, did that include the 
renewable leases?
    Mr. Smith. I don't remember the $2 billion number that I 
gave.
    Mr. Gianforte. It was a number that started at $18 billion 
from energy development and then dropped to $2 billion last 
year.
    Mr. Smith. I am not familiar with that exactly, I know the 
number was from the last administration. I don't have the 
details on that. I imagine that that one would have included 
some of that, but I am not positive, Congressman. I will have 
to get back to the Committee on that.
    Mr. Gianforte. Just curious of the make-up of the number 
and how we are going to pay for this.
    So, both bills take a significant step in addressing our 
maintenance backlog. I commend you and the sponsors of this 
bill for taking a look at this, and look forward to working 
with you on these bills.
    With that, Mr. Chairman, I yield back.
    Mr. Tipton. Thank you. I now recognize Mr. Graves for his 5 
minutes.
    Mr. Graves. Thank you, Mr. Chairman. I want to thank you 
all for being here today. I want to make sure I understand the 
background or impetus for this hearing and the legislative 
proposal.
    So, what we are talking about is a scenario whereby we have 
a maintenance or a conservation issue, and dollars need to be 
invested to address those issues so it doesn't become more 
expensive and become a bigger problem. Is that basically a 
summary of what we are dealing with today?
    Mr. Smith. Yes.
    Mr. Graves. Is that fair? Anybody else object to that? Sort 
of? Close enough? All right.
    And again, under both proposals, where does this money come 
from?
    Mr. Smith. It comes from natural resource revenues.
    Mr. Graves. So, from conventional energy production and 
alternative energy production.
    Mr. Smith. Also, yes.
    Mr. Graves. And following up on Mr. Gianforte's line of 
questioning, the reality is that the majority of these revenues 
would ultimately come from offshore energy production. I 
represent the state of Louisiana, where we produce 80 to 90 
percent of all the offshore energy in Federal waters in the 
United States.
    I am going to say this, I think, because every single time 
we have a hearing there is an opening to do so, and I am not 
going to let folks forget about this. We have lost 2,000 square 
miles of our coast--2,000 square miles. If that were the state 
of Rhode Island, it would no longer exist. If that were the 
state of Delaware, it would only exist of water bodies.
    It is really confusing to me why we would be taking not 
tens of millions, not hundreds of millions, but billions of 
dollars in revenue from an area where this is being generated, 
from an area that, clearly, is not sustainable, and sending it 
to other places.
    And Mr. Chairman, we have heard a few times, and we finally 
pulled these numbers. To give you an idea of where, the Land 
and Water Conservation Fund is what actually purchases the 
property. So, from our revenues in Louisiana that we generate, 
just in 2011 to 2016, $3.7 million has gone to Alabama; $87 
million has gone to, I believe that is Florida; $135 million 
has gone to California. Louisiana, just for comparison 
purposes, has received about $5 million in LWCF revenues.
    The point is, again, if this is an unsustainable area, why 
are we proposing that dollars be extracted from this area and 
sent to other places, rather than carrying out the same type of 
maintenance or conservation type issues or programs in that 
very area that is causing all of this revenue to be generated? 
Could someone help me understand that?
    Mr. Smith. The Land and Water Conservation Fund formula is 
based on state population and state land area. I guess because 
of that is why Louisiana gets less of a share of that than some 
other states, like California.
    Mr. Graves. Right. So, my point in that was just that 
Louisiana is losing there, under LWCF, but more so based on 
these backlog maintenance bills. Why should we take money from 
an area that is not sustainable itself and has major 
conservation needs, some of the greatest environmental needs in 
the Nation, why should we take them and send them to other 
places before first sustaining that very area?
    Mr. Smith. Well, Congress, in passing all the legislation 
that you are talking about that takes these revenues from not 
just offshore and onshore, but we are talking about coal, we 
are talking about gas, we are talking about mineral 
development----
    Mr. Graves. OK. Well, if this proposal is to be altered to 
address those others and take it from those other places, that 
is fine.
    Mr. Lee-Ashley, do you have a response?
    Mr. Lee-Ashley. Congressman, I think your point is right 
on, and especially highlighting the impacts that your coastline 
is experiencing, and the real conservation challenges that you 
are grappling with, and the need to find a conservation funding 
stream to address those needs.
    I will note elsewhere in the country, too, there are 
similar, perhaps not the same scale, challenges. We found that 
a football field worth of natural area in the West is 
disappearing every 2\1/2\ minutes to development. So, how do we 
build a conservation funding stream to address----
    Mr. Graves. Well, it is not disappearing.
    Mr. Lee-Ashley. Perhaps----
    Mr. Graves. It not disappearing, it is still there. We 
actually lose about a football field every hour.
    Mr. Lee-Ashley. Literally, yes.
    Mr. Graves. And ours does actually disappear.
    Ms. Hoyt, I just noted in the first page of your testimony 
how you say that the outdoor recreation industry's gross output 
is $673 billion. I am assuming recreational fishing is part of 
that.
    Ms. Hoyt. Absolutely, yes.
    Mr. Graves. Yes, which in Louisiana, we are losing the 
ecological productivity to be able to participate in those 
activities.
    So, I want to say for myself, and I think I can actually 
say for Mr. Johnson--I am not allowed to speak for my wife, but 
I think Mr. Johnson will let me--we would oppose these bills, 
as written, Mr. Chairman, and would very much look forward to 
working with the Department of the Interior to address this 
real problem, but do so in a manner that does not take from an 
unsustainable area.
    Thank you. I yield back.
    Mr. Tipton. Thank you, Mr. Graves. And I would like to 
thank all of our witnesses for their valuable testimony, and 
the Members for their questions today.
    Members of the Committee may have some additional questions 
for the witnesses, and we will ask you to respond to these in 
writing. Under Committee Rule 3(o), members of the Committee 
must submit witness questions within 3 business days following 
the hearing by 5:00 p.m., and the hearing record will be held 
open for 10 business days for these responses.
    If there is no further business, without objection, the 
Subcommittee stands adjourned.

    [Whereupon, at 3:55 p.m., the Subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

Rep. Grijalva Submissions

 Prepared Statement of the National Parks Conservation Association on 
                        H.R. 2584 and H.R. 5210
                              Submitted by
          Kristen Brengel, Vice President, Government Affairs
    Since 1919, National Parks Conservation Association (NPCA) has been 
the leading voice of the American people in protecting and enhancing 
our National Park System. On behalf of our more than 1.3 million 
members and supporters nationwide, please consider our positions on the 
following bills when they come up at the House Natural Resources 
Federal Lands Subcommittee hearing on March 20, 2018.
    The National Park Service recently celebrated its 100-year 
anniversary, yet the Service is suffering from $11.6 billion in 
deferred maintenance needs including crumbling roads and bridges, run-
down trails, deteriorating historic buildings, memorials and monuments, 
and outdated and unsafe water, sewer and electrical systems. Roughly 
one-third of the overall list is critical projects. This challenge is 
largely due to aging infrastructure that in some cases has outlived its 
life-cycle and insufficient Federal funding over decades.
    NPCA is pleased to see bipartisan, bicameral interest in addressing 
our national parks maintenance needs and it is our hope that Congress 
can deliver a solution that provides robust, realistic and dependable 
multi-year funding.
H.R. 2584:
    National Park Service Legacy Act of 2017--NPCA supports this 
legislation which will dedicate nearly $12 billion over the next 30 
years to address the National Park Service's $11.6 billion deferred 
maintenance backlog. The funding would come from onshore and offshore 
mineral royalties that are not otherwise dedicated to other purposes 
such as the Land and Water Conservation Fund and the Historic 
Preservation Fund, two programs that NPCA also supports.
    This legislation would provide park managers the consistent and 
reliable funding by setting specific amounts of funding every year to 
plan for and effectively address backlog projects. Many of the largest, 
high-priority projects will require certainty for multi-year funding. 
The bill also dedicates 80 percent to non-transportation projects 
(trails, visitor facilities, water systems, etc.) and 20 percent to 
transportation projects, which receive additional funding from the 
Highway Trust Fund. In addition, this law includes a philanthropic 
component to prioritize projects that can leverage a partnership match.
H.R. 5210:
    National Park Restoration Act--NPCA is concerned that this bill 
doesn't provide the funding reliability and certainty like the National 
Park Service Legacy Act. The bill would establish a fund that would 
receive 50 percent of royalties from all types of energy development on 
Federal lands and waters over expected revenues that are not already 
obligated to other purposes like the Land and Water Conservation Fund 
and the Historic Preservation Fund. NPCA is concerned that very little 
funding could result over the 10-year bill to address the maintenance 
backlog if the projections are correct.
    NPCA is also concerned with the lack of certainty of the funding 
stream. Construction projects rely on multi-year funding that is known 
and dependable at the outset, which in part helps the National Park 
Service stage projects and work with contractors who need multi-year 
funding certainty. We fear that without a specific, known amount each 
year, the uncertainty of the funding available would challenge the 
National Park Service to engage in the procurement and contracting that 
is needed for successful repair and reconstruction projects.
    Finally, NPCA needs assurances that the funding source in this bill 
does not have to rely on the Secretary of the Interior's proposal to 
expand drilling into sensitive areas, as stated in the Administration's 
infrastructure proposal.
    In conclusion, investing in park infrastructure makes good sense: 
it preserves our Nation's heritage for future generations, creates 
infrastructure-related jobs, and protects local communities that depend 
on park tourism. The national parks need Congress to provide a solution 
that provides robust, realistic and dependable multi-year funding.
A Few Examples of Park Maintenance Needs That Must Be Addressed:
Trail and Road Repair at Grand Canyon National Park
    Drawing in millions of visitors each year, the Grand Canyon suffers 
from $329 million in deferred maintenance. To repair just three of the 
most popular trails in the park--South Kaibab, North Kaibab, and Bright 
Angel--would cost $33 million. One of the most frequented roads, Desert 
View Drive, winds around the Canyon's South Rim and requires over $18 
million for repairs.
Road Repairs in Zion National Park
    Zion's millions of visitors each year put quite a strain on its 
concentrated roads, causing them to need major repairs. A particularly 
scenic and popular road, the Kolob Canyon Road, requires a staggering 
$15 million for its repairs. Overall, Zion National Park suffers from 
$65 million in needed repairs.
Electrical System Upgrades at Kalaupapa National Historical Park
    Kalaupapa National Historical Park tells the story of Hawaiians 
banished by King Kamehameha V to the north shore of Molokai for 
contracting leprosy. $7 million is needed to replace the unsafe and 
failing electrical system in the park.
Trail Repairs in Yosemite National Park
    Yosemite National Park is home to some of our country's most 
breathtaking cliffs, domes and waterfalls. However, the park suffers 
from $582 million in needed repairs. For example, more than $17 million 
is needed to rehabilitate the Yosemite Bike Path, the Stubblefield 
Canyon Trail, and the Clark Point Spur, a path that leads to the famous 
Vernal Fall.

    Thank you for considering our views.

                                 ______
                                 
 Prepared Statement of the National Trust For Historic Preservation on 
                        H.R. 2584 and H.R. 5210
    Chairman McClintock, Ranking Member Hanabusa and members of the 
Subcommittee, I appreciate the opportunity to share the National Trust 
for Historic Preservation's perspectives on two pieces of legislation 
(H.R. 5210 and H.R. 2584) that address the National Park Service's 
maintenance backlog. My name is Tom Cassidy and I am the Vice President 
of Government Relations and Policy.
    The National Trust for Historic Preservation is a privately-funded 
charitable, educational and non-profit organization chartered by 
Congress in 1949 in order to ``facilitate public participation in 
historic preservation'' and to further the purposes of Federal historic 
preservation laws.\1\ The intent of Congress was for the National Trust 
``to mobilize and coordinate public interest, participation and 
resources in the preservation and interpretation of sites and 
buildings.'' \2\ With headquarters in Washington, DC, 9 field offices, 
27 historic sites, more than 1 million members and supporters and a 
national network of partners in states, territories, and the District 
of Columbia, the National Trust works to save America's historic places 
and advocates for historic preservation as a fundamental value in 
programs and policies at all levels of government.
---------------------------------------------------------------------------
    \1\ 54 U.S.C. Sec. Sec. 312102(a), 320101.
    \2\ S. Rep. No. 1110, 81st Cong., 1st Sess. 4 (1949).
---------------------------------------------------------------------------
    We appreciate the Committee scheduling this hearing to discuss two 
legislative proposals to address the National Park Service's 
maintenance backlog and thereby preserve the ability for Americans and 
visitors to enjoy and experience iconic historic resources and natural 
wonders on Federal lands. This testimony supplements our previously 
submitted testimony to the Natural Resources Committee on March 6, 
2018.
                                the need
    The National Park System is one of our Nation's best ideas--a 
network of 417 parks and sites that protect spectacular historic, 
cultural, and natural resources and tell the stories of remarkable 
people and events in our country's history. The National Park Service 
(NPS) is responsible for maintaining a system comprised of more than 84 
million acres across all 50 states, the District of Columbia, and many 
U.S. territories.
    The National Park System tells an incredible story at sites as 
diverse as Gettysburg National Military Park, the Statue of Liberty, 
Shenandoah National Park, the Martin Luther King Jr. National 
Historical Park, and Native American cultural sites like those at Chaco 
Culture National Historical Park and Mesa Verde National Park. National 
parks, and the historic and cultural sites they protect, are some of 
our Nation's most popular attractions and were visited by over 330 
million people last year. In 2015 alone, these millions of visits 
generated visitor spending of an estimated $16.9 billion in nearby 
communities--spending that supported 295,300 jobs and provided a $32 
billion boost to the national economy.
    The size and complexity of the NPS infrastructure and the 
importance of preserving our parks' invaluable resources represent a 
significant challenge. Unfortunately, after 100 years of operation and 
inconsistent public funding, the National Park System faces a deferred 
maintenance backlog estimated at $11.6 billion, and according to FY 
2016 data, 47 percent of the backlog is attributed to historic 
assets.\3\
---------------------------------------------------------------------------
    \3\ National Park Service data, FY 2016.
---------------------------------------------------------------------------
    Deferred maintenance in our national parks puts historic and 
cultural sites at risk of permanent damage or loss, and in the absence 
of funding, the condition of these assets will continue to deteriorate 
and become more expensive to repair and preserve in the future. Some of 
the National Park Service's most significant historic sites are at risk 
of falling into disrepair. For example, the Statue of Liberty National 
Monument in New York Harbor, which includes Ellis Island--an iconic 
symbol of American freedom and immigration--has repair needs of over 
$160 million.
                          legislative solution
    The NPS maintenance backlog of $11.6 billion demonstrates that 
additional investments and new strategies are necessary if NPS is to 
meet their stewardship responsibilities. We are encouraged by the many 
statements of support by Secretary Zinke, members of this Committee, 
and others for reducing the maintenance backlog and prioritizing this 
issue as part of policy proposals to make investments in our Nation's 
infrastructure.
    The National Trust has worked closely with many stakeholders--
including The Pew Charitable Trusts and National Parks Conservation 
Association--on a legislative solution that would provide dedicated 
funding to address the maintenance backlog. We strongly support the 
bipartisan efforts to introduce the National Park Service Legacy Act 
(H.R. 2584, S. 751) by Representatives Hurd, Kilmer, Reichert, and 
Hanabusa and Senators Warner and Portman and thank them and the 80 co-
sponsors of these bills for their leadership and support.
    We appreciate the many other legislative and policy proposals to 
address the maintenance backlog--including the National Park 
Restoration Act (H.R. 5210, S. 2509)--which demonstrate a recognition 
this is a pressing issue that must be addressed. We believe the 
National Park Service Legacy Act proposal and its strong, bicameral 
support can serve as a starting point for what we hope will be 
immediate action and a bipartisan, legislative compromise to tackle the 
maintenance backlog.

    As this Subcommittee considers legislation to address these needs, 
we offer the following recommendations for elements that would 
successfully address these challenges:
Reliable and Dedicated Funding
    A reliable, dedicated Federal funding source distinct from annual 
appropriations is necessary to address the maintenance backlog, along 
with providing sufficient staffing capacity to ensure that we preserve 
historic sites, maintain buildings and infrastructure in safe 
condition, and keep our parks open and accessible. The Legacy Act (H.R. 
2584) provides such dedicated funding through receipts from onshore and 
offshore energy development that are not otherwise allocated to other 
purposes. This legislation would guarantee contributions toward 
reducing the maintenance backlog over the next 30 years, starting at 
$50 million in 2018 with incremental increases over time through 2047.
    While the National Park Restoration Act would also direct funding 
to the maintenance backlog through receipts from onshore and offshore 
energy development, annual allocations would be limited to 50 percent 
of the revenue above estimated annual projections, which makes a 
solution to the backlog and protection of irreplaceable NPS assets 
dependent on oil prices and production. It is also unclear whether the 
projected increases in energy prices will result in real revenue. We 
believe any legislative solution should include reliable and dedicated 
funding and provide certainty for park units about the availability of 
funds for high priority projects.
Priorities for Maintenance Projects
    The National Trust strongly supports a provision in the Legacy Act 
that provides funding parity between non-transportation and 
transportation-related maintenance needs, which ensures that funds are 
available for the preservation of historic structures and cultural 
artifacts. Many of the large projects included in the NPS backlog are 
transportation-related and will require significant investments.
    For example, several of the road systems at Yellowstone National 
Park have an estimated maintenance cost of at least $850 million.\4\ 
With limited annual allocations to a dedicated fund for the maintenance 
backlog and additional funding for transportation projects available 
through the Highway Trust Fund, a provision to ensure funding parity 
will ensure that the maintenance needs of historic and cultural assets 
are also addressed.
---------------------------------------------------------------------------
    \4\ National Park Service, ``Yellowstone National Park Road 
Reconstruction'' https://www.nps.gov/transportation/pdfs/
Yellowstone_Roads_Reconstruction-022016.pdf; February 2016.
---------------------------------------------------------------------------
Additional Provisions
    The National Trust strongly supports provisions in the Legacy Act 
that promote public-private partnerships that leverage private funding 
for maintenance projects and discretion for congressional appropriators 
to evaluate priority projects.

    We also believe that congressional appropriations providing 
sustained and robust funding levels for Repair and Rehabilitation, 
Cyclic Maintenance, and Line-Item Construction are needed to alleviate 
the maintenance backlog and ensure adequate preservation and protection 
of resources in our parks. After years of level funding or modest 
increases for both Repair and Rehabilitation and Cyclic Maintenance, we 
were pleased to see increases for FY 2016 enacted of $35 million for 
both accounts, followed by an additional increase of $39 million for FY 
2017. Unfortunately, the President's budget request proposes 
substantial decreases for these two key accounts that address the 
deferred maintenance backlog, with Repair and Rehabilitation seeing a 
$25 million decrease and Cyclic Maintenance a $13.6 million decrease. 
As Congress considers FY 2019 funding levels, we believe that 
additional investments in these key accounts will contribute to the 
successful preservation of historic sites and other resources in the 
National Park System.
    The Nation faces a challenging fiscal environment, and the National 
Trust recognizes there is a need for fiscal restraint and cost-
effective Federal investments. However, we do not believe that 
preservation and conservation programs should suffer from 
disproportionate funding reductions, or that a successful solution to 
address the maintenance backlog can omit significant and reliable 
financial investments.
                               conclusion
    Thank you again for the opportunity to present the National Trust's 
perspectives on these issues, and we look forward to working with the 
Committee, Administration, and other key stakeholders as you consider 
policy proposals to address the deferred maintenance backlog. We hope 
that these critical investments continue to sustain our Nation's rich 
heritage of cultural and historic resources that generate lasting 
economic vitality for communities throughout the Nation.

                                 ______
                                 

           Prepared Statement of the Public Lands Alliance on
                        H.R. 2584 and H.R. 5210
                              Submitted by
                     Dan Puskar, Executive Director
    The Public Lands Alliance (PLA) commends the Subcommittee for 
considering two valuable, bipartisan bills: H.R. 2584, the National 
Park Service Legacy Act, and H.R. 5210, the National Park Restoration 
Act. Deferred maintenance on America's public lands is a serious issue. 
By permitting roads, bridges, historic sites, trails, and sewer 
systems, the maintenance backlog creates an overall drag on the visitor 
experience as facilities become worn or less reliable.
    The vast majority of PLA members rely on public lands 
infrastructure to operate their organizations and programs. Our 135 
member organizations are operational partners of more than 600 parks, 
refuges, conservation areas, lakes, and forests with an on-the-ground 
presence in every U.S. state and territory. They staff visitor centers, 
hire and manage youth and veterans corps, conduct educational programs, 
and provide interpretive materials. They annually contribute more than 
$250 million to our public lands through their philanthropic grants, 
programs and services. By enhancing the public lands visitor 
experience, PLA members create jobs and support national and 
international tourism.
    In its testimony before the House Committee on Natural Resources at 
its March 6, 2018 oversight hearing, ``Exploring Innovative Solutions 
to Reduce the Department of the Interior's Maintenance Backlog,'' PLA 
encouraged the Committee to:

    <bullet> Create a dedicated, reliable, and sizable funding source 
            for all DOI public lands that eliminates the existing 
            maintenance backlog while providing necessary routine and 
            cyclic maintenance funding to prevent future backlogs.

    <bullet> Incentivize philanthropy and non-profit support for 
            appropriate maintenance projects and other visitor 
            experience enhancements by expanding matching fund 
            programs, like the NPS Centennial Challenge, to other DOI 
            agencies.

    As the Subcommittee discusses these bills that address the National 
Park Service backlog, PLA reaffirms these points.
Deferred Maintenance Negatively Impacts All Public Lands
    Both bills under consideration provide dedicated, reliable, and 
sizable funding sources to tackle NPS deferred maintenance outside of 
the normal appropriations process. PLA applauds the bipartisan 
commitment to this ideal and encourages the Subcommittee to apply this 
commitment to the other Federal lands within its jurisdiction.
    As Chairman Bishop explained at the ``Exploring Innovative 
Solutions to Reduce the Department of the Interior's Maintenance 
Backlog,'' all Federal lands have a maintenance backlog including the 
Bureau of Land Management, Fish and Wildlife Service, and U.S. Forest 
Service. In its FY 2019 budget proposal, the Administration suggested a 
mechanism similar to what is proposed in H.R. 5210, the National Park 
Restoration Act, but included the Fish and Wildlife Service and its 
decaying facilities. PLA believes an opportunity for a more holistic 
approach to the Federal deferred maintenance problem was missed by 
removing national refuges in the process of converting the 
Administration's proposal to legislative language.
    PLA believes that as the Subcommittee works toward finding 
consensus on a final bill that it include all Federal land management 
agencies under its jurisdiction to participate in the deferred 
maintenance fund. A final bill should address failing facilities like 
the boardwalks in BLM lands and the historic lighthouse on a FWS refuge 
that were highlighted in PLA's earlier testimony.
Incentivize Philanthropy and Non-profit Support
    Many deferred maintenance projects in the National Park Service 
have been addressed successfully in recent years through appropriations 
to the Centennial Challenge fund and through mineral sales identified 
in the Helium Stewardship Act of 2013. In each program, park 
philanthropy and non-profit support were required to match Federal 
dollars before an expenditure from the Treasury could be made.
    Tackling the entire public lands deferred maintenance backlog 
cannot rely on this model. Too many projects like roads, bridges, and 
sewer systems are unworthy of philanthropy and the Federal Government 
must fully fund them. However, when the deteriorating resources are 
historical assets like the Statute of Liberty, or a source of 
recreation and enjoyment such as a hiking trail, private support can be 
marshalled successfully.
    H.R. 2584, the National Park Service Legacy Act, provides an 
innovative solution to leverage private support. The bill encourages 
public-private partnerships that will reduce the overall deferred 
maintenance costs to the NPS by including in its annual list of funded 
projects those that have a 25-33 percent private sector match depending 
on the total amount of the project. Not only are the highest priority 
projects funded, but so too are those projects that non-profit partners 
have been able to mobilize private sector donors to support. H.R. 5210, 
the National Park Restoration Act, unfortunately provides no incentive 
for private sector support.
    As consensus is reached on a final bill, PLA urges the Subcommittee 
to include incentives for non-profit park partners to rally donors and 
work with land management agencies to address failing facilities that 
affect the visitor experience.
    PLA sincerely appreciates the Subcommittee's steadfast commitment 
to enhancing America's public lands and the experience of their 
hundreds of millions of visitors. Thank you for your consideration of 
its views.

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Rep. Denham Submission

    --U.S. Travel Association, Testimony dated March 20, 2018.

Rep. Grijalva Submissions

    --Letter to Chairman McClintock and Ranking Member Hanabusa 
            from the CorpsNetwork dated March 20, 2018.

    --American Society of Civil Engineers, Statement for the 
            Record dated March 20, 2018.

                                 <all>
</pre></body></html>
